<html>
<title> - HAS THE DEPARTMENT OF JUSTICE GIVEN PREFERENTIAL TREATMENT TO THE PRESIDENT AND VICE PRESIDENT?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




   HAS THE DEPARTMENT OF JUSTICE GIVEN PREFERENTIAL TREATMENT TO THE 
                     PRESIDENT AND VICE PRESIDENT?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2000

                               __________

                           Serial No. 106-256

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2000....................................     1
Statement of:
    Robinson, James K., Assistant Attorney General, Criminal 
      Division, Department of Justice............................    27
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, transcript of testimony of Al Gore, Jr.........    83
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     6
    Chenoweth-Hage, Hon. Helen, a Representative in Congress from 
      the State of Idaho, prepared statement of..................   331
    Robinson, James K., Assistant Attorney General, Criminal 
      Division, Department of Justice, prepared statement of.....    32
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Exhibits used in hearing.................................    69
        Letter from Janet Reno...................................   304
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Letter from Charles Ruff.................................    18
        Letter from Craig Gillen.................................    14
        Letter from James Cole...................................    16
        Letter from James McKay..................................    12
        Letter from Michael Zeldin...............................    49
        Prepared statement of....................................    20

 
   HAS THE DEPARTMENT OF JUSTICE GIVEN PREFERENTIAL TREATMENT TO THE 
                     PRESIDENT AND VICE PRESIDENT?

                              ----------                              


                        THURSDAY, JULY 20, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Waxman, Maloney, Cummings, 
Kucinich, Norton, Barr, Shays, Souder, Horn, Ose, Chenoweth-
Hage, Morella, and LaTourette.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; James Wilson, chief counsel; David 
A. Kass, deputy counsel and parliamentarian; M. Scott 
Billingsley and James J. Schumann, counsels; Robert A. Briggs, 
clerk; Robin Butler, office manager; Michael Canty, legislative 
assistant; Leneal Scott, computer systems manager; John Sare, 
staff assistant; Corinne Zaccagnini, systems administrator; 
Phil Schiliro, minority staff director; Phil Barnett, minority 
chief counsel; Kenneth Ballen, minority chief investigative 
counsel; Kristin Amerling, minority deputy chief counsel; Paul 
Weinberger, minority counsel; Michael Yeager, minority senior 
oversight counsel; Ellen Rayner, minority chief clerk; Jean 
Gosa and Earley Green, minority assistant clerks; and Chris 
Traci, minority staff assistant.
    Mr. Burton. Good afternoon.
    A quorum being present, the Committee on Government Reform 
will come to order.
    I ask unanimous consent that all Members' and witnesses' 
opening statements be included in the record. Without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    I ask unanimous consent that the FBI interview summary of 
Donald Fowler dated August 6, 1997 be included in the record. 
Without objection, so ordered.
    I ask unanimous consent that questioning in this matter 
proceed under clause 2(j)(2) of House rule 11 and committee 
rule 14 which the chairman and ranking minority member allocate 
time to the members of the committee as they deem appropriate 
for extended questioning, not to exceed 60 minutes equally 
divided between majority and minority. Without objection, so 
ordered.
    I also ask unanimous consent that questioning in the matter 
under consideration proceed under clause 2(j)(2) of House rule 
11 and committee rule 14 in which the chairman and ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning not to exceed 60 minutes 
equally divided between the majority and minority. Without 
objection, so ordered.
    Today, we are holding another in our series of hearings 
into the Justice Department's handling of the campaign 
fundraising investigation. We have a number of senior Justice 
Department officials here. We have Assistant Attorney General 
James Robinson, the head of the Criminal Division; we have his 
Deputy, Alan Gershel; we have the head of the Campaign 
Financing Task Force, Robert Conrad; and we have the Assistant 
Attorney General for Legislative Affairs, Robert Raben.
    We have a lot of questions about what has been happening in 
this investigation. Before we get into that, I want to restate 
why we are concerned about this.
    When the Attorney General decided she wasn't going to 
appoint an independent counsel, she testified before our 
committee. She promised that the Justice Department would leave 
no stone unturned. This is what she said, ``In this particular 
campaign finance investigation, as in all others entrusted to 
the Justice Department, we are going to follow every lead 
wherever it goes.'' That is the standard I hold her to. So let 
us review what we have learned about this investigation.
    In December 1996, at the very outset, Lee Radek, the head 
of the Public Integrity Section, had a meeting with two senior 
FBI officials. They testified that Mr. Radek said he was under 
a lot of pressure and the Attorney General's job might hang in 
the balance. Director Freeh was so concerned that he went to 
the Attorney General to talk about it. She apparently doesn't 
remember that meeting.
    In the summer of 1997, the FBI learned that documents were 
being destroyed at Charlie Trie's house in Arkansas. Three FBI 
agents got on a plane to Little Rock to get a search warrant 
and seize the documents. They were called back by senior 
Justice Department officials. The search warrant didn't get 
served for another 3 months. When it finally was served, they 
found out that Charlie Trie's staff has been hiding and 
destroying documents during that period.
    The President was interviewed twice by the task force in 
1997 and 1998. He was never asked a single question, not one, 
about James Riady, John Huang, Johnny Chung, or any aspect of 
the foreign money scandal.
    The Vice President was interviewed four times in 1997 and 
1998. He was never asked a single question about the Hsi Lai 
Temple fundraiser. We found out about that because we 
subpoenaed the interview summaries. It wasn't until we made it 
public that the Justice Department got embarrassed and decided 
to go back and reinterview these people.
    No fewer than seven senior Justice Department and FBI 
officials have asked the Attorney General to appoint an 
independent counsel or special counsel. She was told that she 
needed to do it under the mandatory section of the law by the 
Director of the FBI and the head of the task force, Mr. La 
Bella. She refused every time.
    In his memo, Mr. La Bella said that the Department was 
going through contortions to avoid investigating senior White 
House officials. He said there was gamesmanship going on. He 
said they were starting with predetermined conclusions and 
reasoning backward to avoid appointing an independent counsel.
    A year and a half ago, they reached a plea agreement with 
John Huang. They interviewed him for several days. He testified 
that James Riady organized an extensive scheme to funnel 
$700,000 or $800,000 in foreign money into Democratic campaigns 
in 1992. At least that is how much we know of. Yet James Riady 
has not yet been indicted.
    What are we supposed to think about that kind of 
investigation? I know that Janet Reno likes to point to the 
fact that they have gotten a number of convictions. The vast 
majority have been low level conduits. I think the record 
clearly shows that this Justice Department has bent over 
backward to avoid investigating the President, the Vice 
President and other senior White House officials. Why else 
would they wait more than 3\1/2\ years to ask the Vice 
President one single question about the Hsi Lai Temple? That is 
why we needed an independent counsel in the first place.
    So who is to blame for all this? The FBI? The Director of 
the FBI pushed harder than anybody to get an independent 
counsel. The FBI wanted to serve the search warrant on Charlie 
Trie's house and they got overruled. It was the FBI that did 
the right thing when they were told that Lee Radek said the 
Attorney General's job might hang in the balance. The 
prosecutors on the task force, Charles La Bella, pushed hard 
for an independent counsel. He lost a job as a U.S. attorney 
because of it. Robert Conrad, who is here with us today, has 
pushed for a special counsel to investigate the Vice President. 
I have met a few of the prosecutors from the task force. I 
think they are hardworking professionals who want to do the 
right thing. I think the blame rests squarely in the Attorney 
General's office because that is where the big decisions are 
made.
    All of these things we talked about before. There are a 
number of new issues we are going to talk about today with our 
witnesses. I want to mention just a couple of them and then we 
will go into more detail during the questioning.
    First, what happened with the transcript of the Vice 
President's interview bothers me a great deal. As I said, the 
Department was embarrassed because we revealed that the Vice 
President hadn't been asked any questions about the Hsi Lai 
Temple or foreign money.
    The Justice Department went back and reinterviewed him in 
April. I issued a subpoena for the summary of the interview. I 
was told by the Attorney General that turning over that 
interview to us would jeopardize the investigation. It would 
show potential targets of ongoing investigations, what 
direction prosecutors were headed. Here is what she said: ``The 
investigations would be seriously prejudiced by the revelation 
of the direction of the investigations or information about the 
evidence that the prosecutors have obtained.''
    We did not contest that and we didn't get a copy. Little 
did I know that the Vice President already had a transcript or 
did get a transcript of the entire interview. When news reports 
came out that Mr. Conrad had asked for a special counsel, the 
Vice President decided to release it to the press.
    There is a double standard here. The Justice Department 
tells us we can't have it, yet they give it to the Vice 
President. He is the target of the investigation. Why is it not 
OK for this committee to have it but it is OK for the Vice 
President who is under investigation? Did the Vice President's 
actions jeopardize the investigation? If the Vice President put 
his own political damage control ahead of the Justice 
Department's investigation, that is a pretty serious problem.
    I also issued a subpoena for the Justice Department's 
summary of their April interview with the President. Again, I 
was told giving it to us would jeopardize their investigation. 
Does the President have a transcript of his interview like the 
Vice President? Is he going to release it at some time when it 
serves his purposes?
    Second, we reviewed the document subpoenas that the Justice 
Department issued to the White House. There are some very 
important areas in which they didn't even bother to ask for 
documents and that is troublesome.
    Third is the issue of the tape of the December 15, 1995 
White House coffee. The President and the Vice President were 
in attendance. This was the coffee that Mr. Wiriadinata 
attended. He was the Indonesian gardener. He and his wife gave 
$455,000 to the DNC. During the coffee, he told the President 
that James Riady sent me. It is what happens next that is very 
interesting.
    Mr. Wiriadinata moves away from the camera and you hear a 
voice in the background. It sounds very much like the Vice 
President. It sounds like he is saying, ``We oughta, we oughta, 
we oughta show Mr. Riady the tapes, some of the ad tapes.'' 
That is very troublesome.
    If it is the Vice President, why does he want Mr. Riady to 
see the issue ads? Mr. Riady lives in Indonesia. He was the 
person who was the originator of a lot of these illegal foreign 
contributions, the source of hundreds of thousands of dollars. 
Why does the Vice President want him to see these ads?
    What is more troublesome is that I don't think the Justice 
Department has even looked into this. In five interviews with 
the Vice President, they didn't ask him a single question about 
it. I don't think they have even asked to see the original 
tape.
    People might listen to the tape and disagree about what 
exactly he says. It is pretty clear to me but that is something 
the Justice Department needs to determine. That is something 
the Justice Department needs to ask the Vice President about.
    There is one final thing that came up recently that 
provides a perfect example of what is wrong with the Justice 
Department's investigation. Mr. Conrad is the supervisor of the 
task force. He reports to Mr. Gershel. Mr. Gershel is 
responsible for overseeing all of their work, and that is a big 
job.
    We have been told that this is the largest investigation 
the Justice Department has ever mounted. You can imagine my 
surprise when I read that Mr. Gershel was trying the James 
Bakaly case. He spent an entire week at that trial. I don't 
take any particular position on the Bakaly case but there are 
thousands of lawyers at the Justice Department. Why Mr. 
Gershel? Is he giving his full attention to the fundrasing 
investigation?
    James Riady hasn't been indicated and it has been a year 
and a half. He funneled $700,000 or $800,000 in illegal 
contributions that we know about into the country. I don't 
think anyone has really analyzed those videotapes. The Vice 
President certainly hasn't been questioned about them. Whole 
categories of documents were never subpoenaed from the White 
House. The man who is supervising this massive undertaking is 
now out prosecuting Ken Starr's spokesman. Who is setting the 
priorities over at the Justice Department?
    We have a lot of questions to ask and our witnesses are 
here and we appreciate that. We thank you for being here. I 
note that Mr. Robinson recently had some health problems and I 
am glad to see he is doing better and glad that you are here 
with us today.
    Mr. Robinson. Thank you.
    Mr. Burton. I would be happy to yield to Mr. Waxman now for 
his opening statement.
    [The prepared statement of Hon. Dan Burton follows:]


    [GRAPHIC] [TIFF OMITTED] T4429.001
    
    [GRAPHIC] [TIFF OMITTED] T4429.002
    
    [GRAPHIC] [TIFF OMITTED] T4429.003
    
    [GRAPHIC] [TIFF OMITTED] T4429.004
    
    Mr. Waxman. Thank you.
    This hearing makes me think the Attorney General should 
revive an old Johnny Carson routine. She should take the letter 
Mr. Burton sent her this week about the campaign finance 
investigation, make a copy of it and file it away in a 
hermetically sealed jar. That way, she will always have it as 
an irreplaceable and pristine memento of political absurdity.
    There is something exquisite in Mr. Burton lecturing the 
Attorney General on how to run a competent investigation. Three 
years ago, the chief counsel of this committee quit and told 
Mr. Burton that he had ``been unable to implement the standards 
of professional conduct I have been accustomed to at the U.S. 
Attorney's Office.''
    Two years ago when the chairman released the doctored Webb 
Hubbell transcripts, one Republican investigator was quoted as 
saying, ``I am ashamed to be a part of something that is so 
unprofessional.'' In the days after the Hubbell transcript 
debacle, Newt Gingrich, no shrinking violet when it came to 
investigations into Democrats, insisted that Mr. Burton's chief 
investigator be fired and told Mr. Burton he should be 
embarrassed.
    In 4 years, the chairman has run through four chief 
counsels by my count, we have had at least three different 
chief investigators, at least three of his press secretaries 
have come and gone, and altogether nearly 70 people have left 
the committee staff. That is a remarkable record. It explains 
why the congressional expert Norman Ornstein said, ``The Burton 
investigation is going to be remembered as a case study in how 
not to do a congressional investigation and as a prime example 
of investigation as farce.''
    Moreover, the Attorney General should be especially 
attentive to any letter from the chairman that purports to 
interpret words from tapes, as his most recent letter does.
    Mr. Burton is convinced that Vice President Gore is saying 
on the tape, ``We ought to, we ought to, we ought to show Mr. 
Riady the tapes, some of the ad tapes.'' Maybe it does, maybe 
it doesn't. Maybe the reference is to ``Dottie'' or ``Lottie'' 
or even ``John Gotti.'' Who is to know?
    This episode has made me think back to October 1997 when 
the White House released videos of the infamous coffees. Mr. 
Burton was sure that the videotapes had been altered to conceal 
incriminating information. In fact, he was so sure that they 
were altered that he told the country on Face the Nation that 
he was hiring lipreaders to get to the bottom of things. He did 
investigate this, as did others, but no one was able to find 
any incriminating statements.
    Then in April 1998, Mr. Burton released the doctored Web 
Hubbell transcripts. Some reporters initially accepted his 
interpretations as fact but they weren't. The chairman or his 
staff had systematically changed words and left out passages to 
make the transcript seem incriminating. In one excerpt, for 
example, the chairman had Mr. Hubbell saying, ``The Riady is 
just not easy to do business with me while I am here.'' In 
fact, Mr. Hubbell never mentioned Mr. Riady at all. He simply 
said, ``The reality is that it is just not easy to do business 
with me while I am here.'' But if you are dead set on wanting 
to hear Riady at every possible opportunity, it is easy to 
mistake Riady for reality. This and other unfortunate 
distortions in the doctored transcript brought mounds of 
ridicule to this committee.
    In one memorable Time Magazine piece, which I will make a 
part of the record, Calvin Trillin tried to capture how absurd 
this committee's allegations can be.
    All of this would be comical if it did no harm to people's 
reputations but real harm is often done when the chairman 
wildly attacks the integrity of others, particularly the Vice 
President and the Attorney General. These groundless and 
offensive attacks don't reflect just excessive partisanship, 
they have moved far beyond that. They are reckless expressions 
of zealotry that take no account of the personal responsibility 
that each of us has to be accurate or factual in our comments.
    In the Attorney General's case, Mr. Burton is increasingly 
shrill despite the fact that FBI Director Freeh and former 
Campaign Task Force Director Chuck La Bella have told him he is 
factually wrong in questioning the Attorney General's 
integrity.
    The videotape the chairman has analyzed is a good example 
of misguided efforts. How did Mr. Burton and his staff find 
this? They must be spending thousands of hours and countless 
taxpayer dollars combing every videotape and every document 
this committee has ever received to find anything possible to 
embarrass the Vice President.
    Now the chairman is upset that the Vice President received 
so-called special treatment by the task force and he points to 
the fact that the Vice President received a transcript of his 
deposition. That is one of the main reasons we are having this 
hearing.
    I have tried to find out whether this is true. As usual in 
this committee, it turned out it is not true at all. The fact 
is that many other high-ranking officials, including several 
Republican officials, have been treated in the exact same 
manner. When Edwin Meese, the former Republican Attorney 
General was investigated by the independent counsel, he was 
given a transcript of his deposition. I have a letter from 
former Independent Counsel James McKay attesting to this and I 
want to include that in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4429.005
    
    Mr. Waxman. When George Schultz, the former Republican 
Secretary of State, was interviewed by the Iran Contra 
independent counsel, he was given a copy of a taped record of 
his session. I have a letter from former Deputy Independent 
Counsel Craig Gillen attesting to this and I am going to 
include that in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4429.006
    
    Mr. Waxman. When the House Ethics Committee interviewed 
former Speaker Newt Gingrich as part of its investigation into 
his ethical lapses, the committee provided him access to the 
transcripts. I have a letter from James Cole, Special Counsel 
to the Ethics Committee investigation, attesting to this and I 
want to include that in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4429.007
    
    Mr. Waxman. Even this committee has followed the very 
procedures that Chairman Burton is complaining about. When this 
committee interviewed Charles Ruff, the former White House 
counsel earlier this year, Chairman Burton gave him a 
transcript of his interview. I have a letter from Mr. Ruff 
attesting to this and I want to include it in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4429.008
    
    Mr. Waxman. I have more examples but I think my point is 
clear. Vice President Gore didn't receive special treatment at 
all.
    I think what really upsets some people is that the Vice 
President released his transcript publicly. By putting out the 
facts, he made it impossible for his attackers to try him by 
innuendo. Attacks through innuendo have been the standard 
practice in this and too many other investigations.
    The obvious plan, and I say obvious only in retrospect, was 
to have the news media in a frenzy for weeks speculating about 
what new incriminating evidence could be behind Mr. Conrad's 
recommendation, but the Vice President frustrated that plan the 
moment he released his transcript. That has made some of his 
political opponents very angry and resulted in the ludicrous 
hearing we are having today.
    I ask consent that the documents referred to be part of my 
record if that hasn't already been covered by the unanimous 
consent of the chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T4429.009
    
    [GRAPHIC] [TIFF OMITTED] T4429.010
    
    [GRAPHIC] [TIFF OMITTED] T4429.011
    
    [GRAPHIC] [TIFF OMITTED] T4429.012
    
    [GRAPHIC] [TIFF OMITTED] T4429.013
    
    [GRAPHIC] [TIFF OMITTED] T4429.014
    
    [GRAPHIC] [TIFF OMITTED] T4429.015
    
    Mr. Burton. I appreciate the gentleman from California once 
again refreshing our memories about everything that has 
happened in the last 3\1/2\ years, although we don't quite 
agree with everything that was said.
    Are there other Members who would like to make an opening 
statement?
    [No response.]
    Mr. Burton. If not, would the gentlemen please rise so you 
can be sworn?
    Do you swear to tell the whole truth and nothing but the 
truth, so help you God.
    [Witnesses affirm.]
    Mr. Burton. Do any of you have opening statements you would 
like to make?
    Mr. Robinson. I do, Mr. Chairman.
    Mr. Burton. Mr. Robinson.

  STATEMENT OF JAMES K. ROBINSON, ASSISTANT ATTORNEY GENERAL, 
            CRIMINAL DIVISION, DEPARTMENT OF JUSTICE

    Mr. Robinson. Mr. Chairman, ranking minority member and 
members of the committee, since neither I nor my Deputy, Mr. 
Gershel, nor Mr. Conrad, have previously appeared before this 
committee, although Mr. Raben has, I would like to take a 
moment to just tell you a bit about who we are and where we 
come from.
    I have been the Assistant Attorney General for the Criminal 
Division since June 1998. I have been a lawyer for 32 years. 
Before my current position from 1993 to 1998, I was the dean 
and a professor of law at Wayne State University Law School in 
Detroit, MI. My principal area of academic interest in teaching 
and in writing is in the law of evidence. I continue to be a 
tenured professor at the law school on leave during my 
appointment to this position.
    Prior to my appointment as Dean, I was a partner in the 
Detroit law firm of Honigan, Miller, Schwartz and Cohn where I 
chaired the litigation department and engaged in major complex 
litigation including white collar criminal defense work.
    From 1990 to 1991, I was the president of the State Bar of 
Michigan and from 1977 through 1980, I was the U.S. attorney 
for the Eastern District of Michigan in Detroit.
    Alan Gershel is a career Federal prosecutor. He has been a 
Deputy Assistant Attorney General since December 1999. In that 
capacity he has the responsibility within the Criminal Division 
for supervising the Campaign Financing Task Force, the Fraud 
Section and the Child Exploitation and Obscenity Section.
    Before his current position, Mr. Gershel served since 1980 
as an assistant U.S. attorney for the Eastern District of 
Michigan. Before coming to the Criminal Division at my request, 
he was the first assistant and the Chief of the Criminal 
Division in that office. For 20 years he has been a Federal 
prosecutor. He has supervised or personally prosecuted hundreds 
of Federal criminal cases including public corruption and white 
collar matters, as well as a wide range of other Federal 
criminal offenses.
    He has a well-deserved reputation as an outstanding career 
Federal prosecutor. He is smart, aggressive, ethical and fair-
minded.
    Bob Conrad, the current chief of the Campaign Financing 
Task Force, like Mr. Gershel, is a career Federal prosecutor. 
Before being selected with my participation in December 1999 to 
head the Campaign Financing Task Force, Bob served for 8 years 
as the Criminal Chief in the U.S. Attorneys Office for the 
Western District of North Carolina where, like Mr. Gershel, he 
was responsible for supervising hundreds of prosecutions 
involving white collar crime, public corruption, narcotics 
trafficking, firearm violations and a wide variety of other 
Federal crimes. He has personally tried numerous cases ranging 
from bank robberies to capital litigation.
    He has over 11 years of experience as a Federal prosecutor, 
he has proven himself to be a highly talented, tenacious person 
with tremendous personal and professional integrity.
    Mr. Gershel and Mr. Conrad are both on detail to the 
Criminal Division from their respective U.S. Attorneys Offices. 
They and their families have made substantial personal 
sacrifices in order for them to come to Washington and assume 
their important responsibilities. I am personally grateful to 
them and I believe the American people should be as well for 
undertaking this valuable service to the country.
    Mr. Chairman, in the letter you wrote to me requesting my 
appearance, you stated the purpose of today's hearing would be 
to answer the question of whether the President and the Vice 
President received special treatment from the Campaign 
Financing Task Force, from the Criminal Division, or from the 
Justice Department.
    I have great respect for Congress' oversight 
responsibilities and welcome a healthy exchange of ideas with 
this committee about the Department's policies and priorities 
and accept any criticisms that might be made about our 
activities and take that into consideration.
    However, it would be inconsistent with my ethical and 
professional responsibilities to comment publicly about 
specific aspects of any criminal investigation. As you know, 
the interviews of the President and the Vice President pertain 
to matters currently pending before the Department. Indeed, as 
a result of information improperly leaked, it has been widely 
reported in the press that the Attorney General is presently 
considering a recommendation that a Special Counsel be 
appointed to handle certain aspects of the Vice President's 
interview.
    As is well known I am sure to members of this committee, 
the McDade Act, 28 U.S.C. Section 530(b) makes Federal 
prosecutors subject to State ethics rules governing the conduct 
of attorneys. I am bound by the requirements of the rules of 
professional conduct in Michigan and in the District of 
Columbia where I am admitted to practice law. These rules 
prevent me from discussing matters relating to pending criminal 
investigations.
    I am also bound by similar provisions of the U.S. Attorneys 
Manual which provides, among other things, ``Personnel of the 
Department of Justice shall not respond to questions about the 
existence of an ongoing investigation or comment on its nature 
or progress.'' These are legitimate constraints on Federal 
prosecutors for good and sufficient reasons and I would be in 
support of them even if they weren't required but they are.
    As the Attorney General emphasized in declining to answer 
questions about this same matter during her testimony before 
the Senate Judiciary Committee last month, it is essential to 
the fairness and integrity of our criminal justice system that 
criminal investigations and prosecutions be handled in an 
appropriate way. It is my firm belief that prosecutors should 
be doing their talking about pending criminal cases only in 
court and only if charges are actually brought.
    It would not be appropriate for me or my colleagues to make 
public statements that could potentially compromise or 
improperly influence the due administration of justice or 
unfairly prejudice the rights of individuals who may be 
witnesses, subjects or targets of our work.
    If the Department were to provide congressional committees 
confidential information or engage in a dialog about active 
criminal investigations, it would place Congress in a position 
of appearing to exert pressure or attempting to influence the 
prosecution or declination of criminal cases. It could appear 
that Congress was seeking to direct particular tactical and 
strategic decisions such as the timing and sequence of witness 
interviews or the scope and nature of our questioning or 
generally attempting to influence the conduct and outcome of 
criminal investigations.
    Such a practice would not only be inconsistent with the 
constitutionally based principle of separation of powers, it 
would also significantly damage law enforcement efforts and 
shape public confidence and judicial confidence in the fairness 
of the criminal justice system by creating a perception that 
investigative and prosecutorial decisions were being improperly 
influenced by political considerations rather than the merits 
of the case.
    This is not to suggest that prosecutors should be immune 
from congressional oversight or not be accountable to the 
American people or not be subject to legitimate criticism by 
anyone who would see fit to make such criticism. However, I 
think there is a legitimate and major difference between 
appropriate congressional oversight and the disclosure by 
prosecutors bound by ethical rules of confidentiality with 
respect to confidential law enforcement information concerning 
pending matters.
    The danger of congressional intrusion into pending matters 
is not just a theoretical problem, indeed we are facing an 
issue at the very moment created in connection with the Maria 
Hsia case as a result of the hearing that was held last month 
in connection with the Hsi Lai Temple matter. When Mr. Conrad 
was summoned to testify last month before Senator Specter's 
subcommittee, he was asked questions about pending matters and 
appropriately indicated it was inappropriate for him to make 
comments.
    Notwithstanding the very limited nature of Mr. Conrad's 
testimony, Ms. Hsia's criminal defense lawyer not only attended 
a hearing, secured a transcript but has now filed a motion to 
dismiss the indictment in that case or alternatively to 
disqualify the Department of Justice because of congressional 
attempts to influence the Department's handling of the Hsia 
case.
    Although we will not be able to discuss the specifics of 
pending matters, I am prepared, as are Mr. Gershel and Mr. 
Conrad. to discuss in general terms the tactical, ethical and 
legal considerations that may influence prosecutorial decisions 
about the investigative phase of a criminal matter generally. I 
will try to provide the committee a brief overview of some of 
the investigative practices and issues that may help put the 
committee's concerns in context in connection with what I 
understand to be the chairman's interest and concerns.
    Federal prosecutors have a wide variety of methods 
available for gathering relevant facts from witnesses during a 
criminal investigation. Most witnesses in a Federal criminal 
investigation are initially interviewed by FBI agents or by 
agents from another Federal law enforcement agency. These 
interviews are voluntary when they occur. No witness can be 
compelled to give an interview and of course, may refuse to do 
so relying on their constitutional rights to refuse to provide 
information that may tend to incriminate them.
    Sometimes prosecutors will participate in investigative 
interviews, sometimes not. Where a witness is represented by 
counsel, the prosecutor typically will be involved. There are 
often privilege issues that may limit the areas of questioning 
or may result in an agreement between the prosecutor and the 
witness that certain statements of the witness will not be used 
against him. These are issues that the prosecutor and the 
witness' attorney typically seek to resolve through 
negotiation.
    As I explained earlier in my statement, a prosector is 
prohibited not only by grand jury secrecy rules where they 
apply, but also by ethical and professional obligations from 
disclosing information about pending criminal investigations. 
Witnesses and their lawyers, however, are not bound by these 
rules of confidentiality. Indeed, witnesses subpoenaed even to 
testify before a Federal grand jury are free under rule 6(e) of 
the Rules of Federal Criminal Procedure if they choose to do 
so, to come right outside the grand jury room to the steps of 
the courthouse and hold a press conference to disclose every 
question asked and every answer given during their grand jury 
testimony.
    Similarly, witnesses are free to tell the world they were 
interviewed by investigative agencies or by prosecutors, what 
they were asked and what they told. They also can pick up the 
phone and talk to other people about the substance of these 
interviews.
    Although a prosecutor may prefer that a witness not 
disclose information about a pending case, the Government does 
not have any right to dictate who a witness can or cannot talk 
to. Witnesses do not belong to either side of a matter. As a 
matter of due process and prosecutorial ethics, the Government 
cannot threaten or intimidate a witness for the purpose of 
preventing a witness from talking to a subject or target of 
investigation or from exercising their first amendment rights. 
This does not mean that target subjects of an investigation may 
corruptly interfere with the Government's investigation.
    With that in context and in light of the public disclosures 
that have already been made, I can say, without getting into 
the specific details of the discussions between counsel, the 
Vice President's interview on April 18 was a voluntary 
interview. The arrangements for that interview were worked out 
between counsel. Mr. Conrad, in consultation with Mr. Gershel, 
handled the negotiations on behalf of the Department.
    The negotiated agreement met fully the needs of the 
prosecutors in the case. I am sure it also helped encourage the 
continuing cooperation of this witness. We agreed to proceed 
deposition-style and our treatment of the transcript was 
consistent with standard deposition practice with regard to 
both parties getting copies of the transcript.
    As for the Vice President's decision to release the 
transcript, that was his choice and not ours. We would not have 
chosen to release it and we have not released the transcript. 
We had no legitimate basis for objecting to his decision to do 
so. The Justice Department has no authority to prevent a 
witness from making a public disclosure about his or her 
interview or even his or her grand jury testimony, nor would it 
be appropriate for us to criticize a witness for exercising the 
right to do so.
    We cannot, as I said, even prevent a witness from 
disclosing what was asked and what was said to him or her in 
front of a Federal grand jury. For us to instruct a witness to 
remain silent would raise serious constitutional and ethical 
issues.
    Within the constraints under which I operate with respect 
to the discussion of pending criminal matters, we would be 
happy to make every effort to answer the questions you have for 
us that we can appropriately answer.
    [The prepared statement of Mr. Robinson follows:]

    [GRAPHIC] [TIFF OMITTED] T4429.016
    
    [GRAPHIC] [TIFF OMITTED] T4429.017
    
    [GRAPHIC] [TIFF OMITTED] T4429.018
    
    [GRAPHIC] [TIFF OMITTED] T4429.019
    
    [GRAPHIC] [TIFF OMITTED] T4429.020
    
    Mr. Burton. Thank you, Mr. Robinson.
    Do any other members of the panel want to make an opening 
statement?
    [No response.]
    Mr. Burton. If not, we will now start the questioning and 
under the rules, there is 30 minutes allocated for each side. I 
will allocate the first 15 minutes of our side to Mr. Barr of 
Georgia. Mr. Barr.
    Mr. Barr. Mr. Robinson, you say in the first paragraph on 
page 3 with regard to intrusion into pending matters, ``might 
shape public and judicial confidence in the fairness of the 
criminal justice system by creating a perception that 
investigative and prosecutorial decisions were being improperly 
influenced by political considerations rather than the merits 
of the case.'' I don't think any of us could better express our 
concern. That is precisely our concern, that steps that 
normally should be taken and that prosecutors know ought to be 
taken and usually are taken, are not taken. For about 4 years 
now, we have been going around and around and around the same 
issue.
    Initially with regard to the refusal of the Attorney 
General to seek the appointment of an independent counsel when 
the law, we believe and others in the Department of Justice and 
the FBI believe, that the law was pretty clear that the 
Attorney General was required to seek the appointment of an 
independent counsel.
    When the law is very clear and yet the Department of 
Justice at the highest levels fails to take those steps that is 
even a reasonable non-lawyer reading of the statute seems to 
require that does shake public confidence that law enforcement 
is being applied fairly. That is precisely the problem.
    In this case, the Department, as the chairman has 
indicated, has refused to turn over material to us and then the 
Vice President, and yes, you are technically correct, the 
Government cannot, under most circumstances, control what a 
witness who appears either before a grand jury or an 
investigative interview setting, does with that information, 
much as the Government might like to be able to control that.
    I think some of the other members will go into this but it 
seems rather odd to us that the Department maintains, releasing 
the same transcript to the Congress that already has been 
released to the witness, for whatever reason, and that the 
witness has thereafter used it for political purposes, as I 
suppose is the prerogative of the Vice President to use a 
transcript for political purposes, by claiming to Congress to 
release this transcript to you, even though the witness already 
has it and is making it publicly available for political 
purposes, would somehow impede an investigation raises a 
question in our minds and in the minds of many members of the 
public. That is precisely the point that brings us today.
    A number of us do not feel that these cases are being 
pursued and we have some questions about that. They are just 
questions about some of the evidence that we have reviewed that 
I believe is relevant here today.
    The first and most troubling matter was the subject of the 
chairman's letter to the Attorney General dated July 18, 2000. 
As you know, the committee has obtained the original tape of 
the December 15, 1995 White House coffee. That coffee was 
attended by Mr. Arief Wiriadinata, the Indonesian son-in-law of 
a co-founder of the Lippo group who worked in the United States 
as a gardener. Mr. Wiriadinata and his wife illegally gave 
$450,000 to the DNC, all of that money coming from his father-
in-law.
    Up until now that coffee is most famous for Mr. 
Wiriadinata's statement to President Clinton as the President 
was going around the room at this coffee being introduced to 
people that ``James Riady sent me.'' That is not open to 
dispute. That is what he said to the President when he was 
introduced to the President, ``James Riady sent me.''
    We spent a lot of time listening to this tape and I have 
listened to the tape a number of times. The Vice President 
attended that coffee. He is seen on the tape as he enters. As 
is the norm for these sorts of political gatherings, the 
President will come in, followed by perhaps some of his aides 
and scribes, and the Vice President happened to be there also. 
They will both make their way around the room introducing 
themselves and engaging in small talk with the people at the 
coffee or whatever event it is. That is standard operating 
procedure.
    The Vice President attends the coffee. He comes in a bit 
behind the President and he can be seen coming into the room. 
It is on the Government's tape. He can also be heard on the 
audio portion of the tape. After the President is introduced to 
Mr. Wiriadinata, the relative of Mr. Riady by marriage and who 
tells the President, ``James Riady sent me,'' very audibly, 
then the President proceeds on down and Mr. Wiriadinata is sort 
of standing there, very much out of place--and indeed, he is 
out of place. This was not a meeting of the Gardener's 
Association, this was a meeting of major donors to the 
President's and Vice President's campaign.
    Mr. Wiriadinata was not a prominent business person as 
these others, or at least a major donor, and he doesn't appear 
to know anybody at this coffee, so he is sort of just standing 
there. You see him just standing there as the President moves 
on behind him and introduces himself and engages in small talk 
with other people.
    About the time that it would be reasonable for the Vice 
President to come up to Mr. Wiriadinata--he is following the 
President--you see Mr. Wiriadinata turn and then talk with 
somebody. Granted that conversation takes place off-screen. We 
are not trying to manufacture evidence here, but it is very 
clear to those of us who have listened to the original of the 
tape, which I think you all have not, even though you have 
commented on it, it is very clear that what appears to be the 
voice of the Vice President of the United States saying to Mr. 
Wiriadinata, ``We oughta, we oughta, we oughta show Mr. Riady 
the tapes, some of the ad tapes.''
    The concern that we have, and I will play this in a second, 
is that this evidence is not being followed up and that is the 
question we have. Let us roll the tape, please and we also have 
on the screen the specific language as you see Mr. Wiriadinata 
pulled off-screen and the conversation takes place.
    [Videotape played.]
    Mr. Barr. Would you replay that, please, and I will stop it 
at a couple of key points.
    The President and Vice President are both clearly in the 
room. Does there seem to be any dispute about that? I am asking 
the witnesses, does there seem to be any dispute the President 
and the Vice President are both in the room? Does that appear 
to be the case?
    Mr. Robinson. I would say, Congressman Barr, this is what 
it is. I don't think it would be appropriate for us to make 
comments on anything that might be evidence but we are here and 
we are watching.
    Mr. Barr. Is this evidence in the case or is the universe 
about which you are not commenting anything that might be 
evidence in the case?
    Mr. Robinson. I assume that as a former U.S. attorney and a 
Federal prosecutor, you would agree with me that it would be 
inappropriate for a Federal prosecutor to be commenting on 
matters that under 3.6 or otherwise, might be the subject of 
our investigation. I certainly don't think it is appropriate.
    Mr. Barr. Is this coffee the subject of your investigation?
    Mr. Robinson. The Campaign Financing Task Force has a broad 
subject of its review. As you know, we have had a number of 
prosecutions including many prosecutions of individuals who 
have been donors to the campaign and it would be inappropriate 
for us to make comments, and particularly to comment on 
evidence.
    Obviously we are happy to see what this is and receive 
anything we get from the committee and to evaluate it.
    Mr. Barr. Is this the first time you have seen this tape?
    Mr. Robinson. I think it would be inappropriate for me to 
comment as to what we have been looking at and I might also 
say, earlier you made the point that we all have commented on 
this tape and that is simply not the case. It wouldn't be 
appropriate for us to comment on the case. I think it would 
violate my ethical responsibilities as a prosecutor to do it. I 
think it would be inappropriate. We are happy to view this.
    Mr. Barr. We are glad to perform the public service of 
showing you all evidence. Let us proceed then.
    [Playing of tape.]
    Mr. Barr. This is the Vice President of the United States, 
Mr. Al Gore. Proceed.
    [Playing of tape.]
    Mr. Barr. This is Mr. Arief Wiriadinata shaking hands with 
the President of the United States. Proceed.
    [Playing of tape.]
    Mr. Barr. Stop the tape. This is Mr. Wiriadinata telling 
the President, ``Mr. James Riady sent me.'' Proceed.
    [Playing of tape.]
    Mr. Barr. Stop the tape. This is Mr. James Wiriadinata at 
the lefthand side of the tape. Proceed.
    [Playing of tape.]
    Mr. Barr. Stop the tape. This is Mr. Wiriadinata being 
drawn off the visual screen here, being spoken to by somebody 
who has pulled him aside. Proceed.
    [Playing of tape.]
    Mr. Barr. Stop the tape. With the interruptions, we missed 
the part. Go back to the part where the statement is, ``we 
oughta, we oughta, we oughta show Mr. Riady the tapes, some of 
the ad tapes,'' please.
    [Playing of tape.]
    Mr. Barr. Stop the tape. What we have here, we have gone 
through this a couple of times. It seems reasonable to deduce, 
even if one does not want to, that the President and the Vice 
President came into a room, Mr. Wiriadinata was there, he tells 
the President, Mr. James Riady sent me, he didn't whisper, he 
says it, it is audibly clear to ourselves and others that were 
in the room.
    Very shortly behind the President comes the Vice President. 
I can't tell you for a certainty that it is the Vice President 
or one of his people that pulls Mr. Wiriadinata off screen. It 
seems reasonable that is what happens because the voice that we 
then hear talking to Mr. Wiriadinata saying, I think very 
clearly, ``We oughta, we oughta, we oughta show Mr. Riady the 
tapes, some of the ad tapes,'' and then somebody else says 
something else regarding that, we can set it up or something. 
It seems to me at an absolute minimum, if the Department of 
Justice is interested in pursuing a full, fair, comprehensive 
and complete investigation of these matters, this tape ought to 
be analyzed and the Vice President ought to be questioned about 
it.
    Mr. Burton. The gentleman's time has elapsed, the 15 
minutes, and we are going to go to Mr. Shays next.
    Go ahead and continue.
    Mr. Barr. The concern I have about the Department 
commenting on this tape arose in a CNN piece just yesterday 
entitled, ``Justice Says White House Coffee Tape Unclear. 
Hearing scheduled Tuesday.'' I presume they meant Thursday. In 
that piece, a Justice Department source is quoted as saying 
that the tape, this tape is unclear because of poor audio. That 
is what I am talking about. The Department of Justice, if you 
believe CNN and I guess we are all free to believe or 
disbelieve them, is commenting on this tape.
    Mr. Robinson. Can I say unequivocally, I haven't commented 
on this, I wouldn't comment on it. It would be inappropriate 
for anyone from the Justice Department to make a comment on 
this. I am quite confident that Mr. Gershel and Mr. Conrad 
haven't made any public comments or other comments about it. I 
don't think we ought to be making comments about it. It would 
be inappropriate.
    Mr. Barr. I have absolutely no reason to believe that any 
of you all have, but it appears that somebody at the Department 
of Justice has.
    Our concern here is, there seems to be a piece of evidence 
that very clearly raises substantial questions regarding what 
we have been led to believe is an investigation that we are 
told is being conducted very aggressively and comprehensively 
by the Department of Justice concerning the very issues raised 
in this tape and in the audio portion of the tape. That is that 
the Vice President's involvement in these issue ads, the 
problem with having foreign money, including from Mr. Riady, 
come in, and you have three key players right here in the same 
room, the President, Mr. Wiriadinata and the Vice President, 
engaging in conversations that by every appearance relate 
directly to these matters.
    Yet, as far as we can tell, they have not been looked into. 
This is the original of the tape provided to us. It is a copy 
of the original. One presumes that no matter how good a quality 
a copy is, the original is always at least marginally better. 
We think this ought to be looked into.
    I ask again, is this tape, is this coffee, are these 
individuals, is this language, of interest to the Department of 
Justice?
    Mr. Robinson. I cannot comment on the investigative matter 
but obviously we are here, we have heard it and we receive lots 
of information from Congress and other sources. Whenever we get 
information, we look at it carefully as a general proposition, 
but I can't comment on the specifics of our investigations. It 
would be inappropriate.
    Mr. Barr. Will you commit to look at this as more than just 
a general proposition?
    Mr. Robinson. I think it would be inappropriate for me to 
make a statement about how we are going to conduct an 
investigation but I think we are all here and we have seen this 
information. We take information that we get from Members of 
Congress seriously, obviously, and others as well. It wouldn't 
be appropriate, I think, for us to make any comments about how 
we are going to handle particular items of evidence.
    Mr. Barr. We would urge you to. It seems to me this tape 
being not new, it has been around for a while, should have been 
looked at by now, and we would hope at this late stage, because 
apparently these investigations are continuing, that it be 
looked at and looked at very carefully in the full context of 
the allegations. We would appreciate that very much.
    Thank you, Mr. Chairman.
    Mr. Burton. Unfortunately, gentlemen, we have a vote on the 
floor. I think we have two votes. Before we yield to Mr. Shays, 
we will come back as soon as we vote and we will stand in 
recess until the call of the gavel.
    [Recess.]
    Mr. Burton. The committee will come to order.
    I will now recognize for the remainder of my time, the 
gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Robinson, Mr. Raben, Mr. Conrad and Mr. Gershel, good 
afternoon.
    I have strong feelings like the ranking member of this 
committee but I come to a different conclusion. I think our 
committee work would have been done a long time ago if we had 
had the cooperation of the administration. I have a hard time 
with 120 witnesses not cooperating with House and Senate 
committees, with 79 taking their fifth amendment rights, 18 
percent leaving the country, 23 foreign witnesses simply 
refusing to cooperate. I think we would have been done a long, 
long time ago and frankly I think probably the Justice 
Department might have had more success as well if they had had 
cooperation of witnesses.
    I am interested in trying to learn more about two things, 
why it took almost 4 years to ask the Vice President about the 
Hsi Lai Temple fundraiser and why the Vice President was able 
to release his last interview transcript to the media, which I 
know you talked about a bit.
    By now, it is well documented that the Hsi Lai Temple event 
was a fundraiser. Charlie Trie testified in March before this 
committee. I asked the following. ``The idea of this event was 
as a campaign fundraising event and you helped initiate it with 
the DNC. Isn't that correct?'' Charlie Trie answered ``Yes.''
    When John Huang testified before this committee in December 
1999, I asked him, ``Is it true that some people came to the 
event expecting they should make a contribution?'' Mr. Huang 
answered, ``Yes, yes.'' Then I said, ``But in fact, it was a 
fundraising event, is that correct?'' Mr. Huang answered, 
``There was money whether before or after being raised, yes.''
    We have a memo from John Huang to Kim Tilley, who was Vice 
President Gore's director of scheduling. The subject is 
``Fundraising lunch for Vice President Gore.'' The proposed 
location is the Hsi Lai Temple, Hacienda Heights, CA. The 
Secret Service knew it was a fundraiser and described the event 
as a fundraising luncheon.
    The National Security Council expert 2 weeks before the 
event noted in e-mail that the head of the Hsi Lai Temple 
``would host a fundraising lunch for about 150 people in the 
VP's honor.''
    Then we also have money being returned by the Democratic 
National Committee and they list reasons for returning money--
``unable to substantiate sources of funds.'' They returned one 
$5,000 on November 16 and this is the reason they returned it, 
``It was a Temple, you idiot.'' That is what they said. It 
makes you wonder how we would describe the Vice President.
    The bottom line, Don Fowler, former chairman of the DNC, 
attended the event at the Hsi Lai Temple. Didn't he attend that 
event?
    Mr. Conrad. Congressman Shays, I feel like I am in the same 
awkward position of not wanting to comment on pending matters.
    Mr. Shays. I am not talking about pending matters. I am 
just asking if he attended an event. Do you know if he did or 
not?
    Mr. Conrad. I think you are asking me to comment on things 
that have come before the task force.
    Mr. Shays. I would like to read something from the task 
force interview of former DNC Chairman Fowler. ``Fowler stated 
that he never discussed the temple event with Huang before it 
started. Fowler recalled that David Devkin, who was from East 
India, drove him to the Temple. Fowler and Devkin were 
discussing the fact that the fundraiser was at a temple. Devkin 
was telling Fowler that in the Buddhist religion, many things 
happen at a temple besides worship. Devkin said he did not 
think it was unusual they would be having a fundraiser at the 
temple.''
    Right after that, it says, ``Fowler stated that he did not 
now that Maria Hsia, although he believes that she had visited 
his office on at least one occasion.'' Isn't it true that Maria 
Hsia was found guilty of illegal campaign contributions?
    Mr. Conrad. Yes, sir.
    Mr. Shays. Mr. Conrad, the chairman of the DNC says that he 
did not talk to Huang and he did not know Maria Hsia but he 
knew beforehand that the temple event was a fundraiser. Do you 
know how Don Fowler knew the temple event was a fundraiser?
    Mr. Conrad. I don't think I would want to comment on that.
    Mr. Shays. Based on this admission, did Chairman Fowler 
knowingly allow the DNC to hold a fundraiser at the temple?
    Mr. Conrad. Same thing. I don't feel I am in a position 
where I could comment on that.
    Mr. Shays. Is there any evidence the DNC withheld any 
information about the temple event from the Vice President's 
office?
    Mr. Conrad. My answer would be the same, sir.
    Mr. Shays. The evidence goes on and on about the Buddhist 
temple event being a fundraiser, so I guess one of the things I 
really want the Justice Department to tell me is, why did it 
take nearly 4 years to ask the Vice President a single question 
about the Hsi Lai Temple? Mr. Conrad, do you know why it took 4 
years?
    Mr. Conrad. No, sir.
    Mr. Shays. Mr. Gershel, do you know why it took nearly 4 
years?
    Mr. Gershel. No, sir.
    Mr. Shays. Mr. Robinson, do you know why it took nearly 4 
years?
    Mr. Robinson. No.
    Mr. Shays. Mr. Conrad, when John Huang testified before 
this committee, he was asked about the following statement made 
by Vice President Gore, ``I did not know that the money was 
being contributed at the time. The people with me did not know. 
Obviously someone did not handle it right.''
    Huang said that the Vice President's statement was ``not 
true.'' Huang said, ``I believe that Fowler knows about that 
and also Mr. Strauss,'' and I think he is referring to David 
Strauss, ``probably knew about that as well.''
    Has the contradiction between Mr. Huang and the Vice 
President served as the basis for your recommendation that a 
special counsel should be appointed to investigate the Vice 
President?
    Mr. Conrad. I don't think I can comment on that at this 
time.
    Mr. Shays. Can you comment on whether you have recommended 
that a special counsel be appointed to investigate the Vice 
President?
    Mr. Conrad. I think the Attorney General has indicated that 
there is a recommendation on her desk from me and beyond that, 
I don't think I could comment.
    Mr. Shays. Let us turn to a related matter, the subject of 
why Congress couldn't get copies of the President and Vice 
President's April 2000 interview transcripts while the Vice 
President could provide his transcript to the media.
    Mr. Conrad, early this year in April, you interviewed the 
Vice President, correct?
    Mr. Conrad. Yes, sir.
    Mr. Shays. Was the information in the Vice President's 
interview only related to your investigation of the Vice 
President's conduct?
    Mr. Conrad. I couldn't comment on pending matters, sir.
    Mr. Shays. Are there questions that relate to your 
investigation of other individuals?
    Mr. Conrad. I think to comment on what particular 
questions----
    Mr. Shays. Prior to this interview, the Vice President was 
interviewed four times. A transcript of these interviews was 
not prepared, correct?
    Mr. Conrad. My participation was in the interviews in April 
and transcripts were prepared of those interviews.
    Mr. Shays. Do you know if transcripts were prepared for the 
President in any of the other interviews?
    Mr. Conrad. I don't believe there were.
    Mr. Shays. Mr. Robinson, do you know if any were in any of 
the first four interviews?
    Mr. Robinson. I think Mr. Conrad is right, most of those 
occurred before I arrived, but I think Mr. Conrad is correct.
    Mr. Shays. Why was a transcript prepared for the fifth 
interview, the one taken in April of this year, and not for the 
first four?
    Mr. Conrad. I can't speak for the first four but I know 
with respect to the interviews in April, they were a product of 
negotiations between myself and counsel for the two witnesses. 
As a result of those negotiations, voluntary sworn testimony 
was taken under oath and transcribed.
    Mr. Shays. So you had the ability to negotiate with the 
President about his fifth interview and you set certain 
criteria for that interview or he made certain requests, there 
was an agreement?
    Mr. Conrad. Counsel for the President, the Vice President 
and myself, yes, sir.
    Mr. Shays. So you worked out an agreement where you would 
tape it and you would give him the interview. Why would you 
have given it to the Vice President?
    Mr. Conrad. The voluntary interviews of the Vice President 
and the President were taken deposition-style and as a result 
of the negotiations between counsel and myself, it was agreed 
that a transcript would be provided to myself and the counsel 
for the witnesses.
    Mr. Shays. Did you agree the transcripts would be provided 
to anyone else?
    Mr. Conrad. No, sir.
    Mr. Shays. What conditions did you set regarding the Vice 
President's possession of the transcript? For example, did you 
allow him to keep a copy of the transcript as long as he 
promised not to release the transcript to anyone else or to 
discuss the transcript with any others than his attorneys?
    Mr. Conrad. There were no conditions like that.
    Mr. Shays. Did it ever occur to you that the release of the 
Vice President's transcripts might harm the Justice 
Department's investigation of campaign financing legalities?
    Mr. Conrad. Throughout the course of setting up the 
interviews and conducting the interviews and since then, I took 
steps I thought were in the best interest of the Campaign 
Financing Task Force investigation. The way the interviews were 
set up, I thought then and think now, they were in the best 
interest of the investigation.
    Mr. Shays. Did you make it clear to the Vice President if 
he released these documents, it would be harmful to the 
investigation?
    Mr. Conrad. No, sir.
    Mr. Shays. Did anyone at the Justice Department speak to 
the Vice President or his lawyers before he released the 
transcript of his April interview to the media?
    Mr. Conrad. That I would feel uncomfortable talking about.
    Mr. Shays. Mr. Robinson.
    Mr. Robinson. I think it wouldn't be appropriate to talk 
about the details except to suggest that there was a discussion 
of notifying us of the intention to release this transcript and 
there was no basis, as I indicated in my submitted testimony, 
for the Department to object to that.
    Mr. Shays. That is interesting. You would certainly object 
if we released it and you sent a letter--excuse me, the 
Attorney General sent a letter and on page 2, she says, ``The 
disclosure of the records of such recent interviews is of 
particular concern because revealing information, especially 
the questions posed in the interviews, could disclose 
significant aspects of our ongoing campaign finance 
investigation which includes multiple matters. No prosecutor 
would want other witnesses to have the benefit of these witness 
interviews. The investigations would be seriously prejudiced by 
the revelation of the direction of the investigations or 
information about the evidence that the prosecutors have 
obtained.''
    Mr Robinson. We would not have released it, we didn't 
release it and if we had been asked by anybody, including the 
Vice President's counsel that the Department release it, we 
would not have done so.
    Mr. Shays. But you wanted us to know it would be harmful 
and we couldn't have it but you didn't seem to want the Vice 
President to know if he released it, it would be harmful and I 
find that typical.
    Mr. Burton. Mr. Shays, your time has expired.
    Mr. Waxman, you are recognized for 30 minutes.
    Mr. Waxman. At the outset, let me indicate that I think Mr. 
Shays' characterization of the testimony by John Huang 
regarding the Hsi Lai Temple is different from the one I heard 
and I want to insert in the record the precise language from 
that hearing so it will be very evident to people as they look 
at the record of this hearing.
    On to the questions before us today and the issue before us 
is whether the Attorney General, as the chairman has charged--
and these are serious allegations which attack her integrity--
whether she or others in the Department of Justice tried to 
block this investigation of the President and the Vice 
President.
    Unlike the chairman, you have had an opportunity to observe 
the Attorney General firsthand. You have not always agreed with 
her decisions but you have been able to assess her integrity so 
what I want to do is ask you about the chairman's allegation.
    Chairman Burton has recently asserted that ``Janet Reno has 
been blatantly protecting the President, the Vice President and 
their Party from the outset of this scandal.'' He has also 
stated that, ``Janet Reno has been running interference for the 
President.''
    FBI Director Freeh, however, has repeatedly testified 
before this committee that the Department's campaign 
investigation has been aggressive and thorough. On December 9, 
1997, Mr. Freeh testified, ``I can assure you, Mr. Chairman, 
that the FBI is not being impeded in any way in conducting our 
investigation. The task force was formed last December. Their 
marching orders are to go wherever the evidence leads them.'' 
That is from Director Freeh.
    In testimony before this committee on August 4, 1998, 
Director Freeh and former campaign task force head Charles La 
Bella provided additional testimony on this issue. I asked 
whether either had been asked to pull a punch because of 
politics. Both answered no.
    In that same hearing, I asked Director Freeh about the 
chairman's allegations. Our discussion went as follows:

    Mr. Waxman. I want to ask one question. The chairman has 
made the statement that he thinks the Attorney General is 
covering up for the White House and the Democrats and that is 
why she is not cooperating. Do any of you believe that?
    Mr. Freeh. No, I do not believe that at all.

    That is from the transcript. Mr. Conrad, do you agree with 
Director Freeh's statement that the FBI and the Department of 
Justice have conducted a thorough investigation of the 
allegations of campaign finance violations?
    Mr. Conrad. Speaking for myself, I feel very comfortable 
saying that I have pursued the task force since January of this 
year in as aggressive a way as possible.
    Mr. Waxman. That what?
    Mr. Conrad. That I have pursued the investigation in as 
aggressive a way as possible.
    Mr. Waxman. What about you, Mr. Robinson or Mr. Gershel, do 
you agree that the Justice Department has conducted a thorough 
investigation of the allegations of campaign finance?
    Mr. Robinson. I believe so. One of the reasons we picked 
Bob Conrad as a career prosector, one of the reasons I brought 
Alan Gershel, a 20-year prosecutor who I hired in 1980 when I 
was U.S. attorney down here, was to have aggressive prosecutors 
who would work with competent FBI agents in conducting these 
investigations and doing it thoroughly. That is our intention 
and continues to be our intention.
    Mr. Waxman. Mr. Gershel.
    Mr. Gershel. I would agree with that.
    Mr. Waxman. Mr. Conrad, do you agree with the chairman's 
assertion that the Attorney General has been ``blatantly 
protecting the President and the Vice President?''
    Mr. Conrad. Just speaking from personal experience, my 
experience has been that I have had a fair hearing from her on 
issues that I have brought before her and my expectation would 
be that I would have a fair hearing on any recommendations in 
the future.
    Mr. Waxman. You have had a fair hearing from her?
    Mr. Conrad. Yes, sir.
    Mr. Waxman. You expected to have a fair hearing from her?
    Mr. Conrad. Yes, sir.
    Mr. Waxman. Therefore, that would be inconsistent with the 
idea that she is trying to have you conduct an unfair hearing 
in order to protect the President and the Vice President?
    Mr. Conrad. I am telling you what my experience has been 
and what I expect it to be, yes, sir.
    Mr. Waxman. So as far as your experience is concerned, you 
have not seen any conduct on her part that would support the 
idea that she is trying to blatantly protect the President and 
Vice President?
    Mr. Conrad. No, sir.
    Mr. Waxman. Mr. Robinson, is your view the same?
    Mr. Robinson. It has been the same since I joined the 
Department in June 1998. I have been involved in this process 
since that time. Among the first things that hit my desk when I 
took this job were these matters, particularly in the 
independent counsel area. I have found the Attorney General to 
be thoroughly interested in airing all of the ideas of those 
who advise her in making sure that all of the legal and factual 
issues are fully explored and ultimately under the Independent 
Counsel Act and now it is her responsibility. That is what she 
is charged with doing. I found her to be fair and open. At 
times she listens even more than I think most would to 
everybody's view. I see no indication whatsoever that she is 
trying to protect anyone other than to reach, as she sees it, 
the correct decision in the application of the facts to the law 
as she sees it.
    Mr. Waxman. Mr. Gershel, what are you views on that?
    Mr. Gershel. I have been here about 6 months now, the same 
time that Mr. Conrad got here, and I have had the experience on 
a fairly regular basis to meet with her, along with Mr. Conrad 
and Mr. Robinson and others where we discuss campaign finance 
investigations, the status of those investigations. My own 
experience is that she is interested, participates, at times 
will offer suggestions and generally wants us to do the right 
thing. I have never felt that we have been inhibited in our 
investigative efforts.
    Mr. Waxman. One of the questions the majority is raising at 
this hearing is whether the arrangements concerning an 
interview Mr. Conrad conducted with the Vice President of the 
United States on April 18, 2000 demonstrate ``preferential 
treatment'' of the Vice President. As you know, this interview 
was transcribed, the Vice President had access to a copy of the 
transcript and the Vice President released the transcript 
publicly.
    The chairman recently suggested wrongdoing on the part of 
the Department of Justice concerning this arrangement. Mr. 
Conrad, I would like to ask you a few questions about the 
transcribed interview of the Vice President that you conducted 
on April 18, 2000.
    The chairman says giving the Vice President a transcript 
was special treatment but my understanding is that when former 
Independent Counsel James McKay took a deposition of former 
Attorney General Ed Meese, he gave him a copy of the 
transcript. Mr. Conrad, do you know whether that is correct?
    Mr. Conrad. I heard you mention that in your opening 
statement. I had knowledge of that beforehand.
    Mr. Waxman. My understanding is as part of the Iran Contra 
independent counsel investigation, the independent counsel 
conducted a taperecorded interview of former Secretary of 
State, George Schultz, and gave him a copy of the tape. Do you 
know whether that is true?
    Mr. Conrad. My answer to all the examples that you pointed 
out in your opening statement would be the same. I don't have 
any prior knowledge.
    Mr. Waxman. Just to mention the others so we can point them 
out--the independent counsel investigations on alleged 
mishandling of passport information, there it was the general 
practice to take the depositions of senior administration 
officials and provide them with full access to deposition 
transcripts.
    Then I have a letter from former Independent Counsel 
Michael Zeldin, where he says he used this procedure to take 
depositions of two former Secretaries of State, James Baker and 
Lawrence Eagleburger, former National Security Advisor, Brent 
Scrowcroft, and former CIA Director Gates. I would like to have 
those entered into the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4429.021
    
    Mr. Waxman. These are just a few examples, Mr. Conrad. It 
appears you were not the first to use this procedure or to 
provide a transcript to a witness after an interview. Is that 
your understanding?
    Mr. Conrad. It appears to be that way, yes.
    Mr. Waxman. You didn't know about the other examples. Did 
you feel you were doing something unprecedented?
    Mr. Conrad. I thought at the time and I still think today, 
that both as to the manner of the interviews and the form of 
the interviews, they were taken in the best interest of the 
investigation.
    Mr. Waxman. Mr. Gershel, I understand you have experience 
in conducting criminal investigations prior to the campaign 
finance investigation. I would like to know whether you think 
you have used a procedure like the arrangement with the Vice 
President in past criminal investigations?
    Mr. Gershel. On occasion, Congressman, I have done that. 
The circumstances of each case are different and sometimes it 
lends itself to that kind of format. I should also indicate 
that Mr. Conrad and I discussed, while this process was 
ongoing, the sort of ground rules for the interview and I fully 
agreed and supported Mr. Conrad's decision in that.
    Mr. Waxman. So Mr. Conrad, you made a decision that you 
would interview the Vice President in a deposition format and 
provide him with a transcript? That was your understanding with 
the Vice President and his counsel and that is what you did?
    Mr. Conrad. Yes, sir.
    Mr. Waxman. It sounds like there were sound prosecutorial 
reasons behind the type of arrangements you made with the Vice 
President regarding the April 18, 2000 interview and the 
arrangements do not reflect an effort to provide the Vice 
President with special treatment. Is that correct, Mr. Conrad?
    Mr. Conrad. From my perspective, that is absolutely 
correct.
    Mr. Waxman. Janet Reno gets blamed for a lot of things. Did 
she have any personal involvement with that decision of yours 
on how to conduct the interview?
    Mr. Conrad. No, sir.
    Mr. Waxman. I would like to turn to another allegation the 
majority is focusing on in this hearing. This week, the 
chairman wrote Attorney General Reno regarding a videotape of a 
coffee Vice President Gore attended on December 15, 1995. The 
Chairman believes this videotape contains ``deeply troubling 
and significant information'' and we had an opportunity to 
witness the videotape.
    According to the chairman, on the videotape the Vice 
President says to Arief Wiriadinata, ``We oughta, we oughta, we 
oughta show Mr. Riady the tapes, some of the ad tapes.'' The 
chairman is concerned that the Department of Justice was aware 
of this videotape, yet did not ask the Vice President about 
this alleged comment during the April interview with the Vice 
President.
    In his letter, the chairman alleges that the Attorney 
General has ``chosen to ignore this evidence'' and states the 
Department's conduct regarding this evidence raises concern 
that your department has been sitting on important information 
in order to benefit the President and the Vice President.'' He 
further alleges that the Attorney General gave the Vice 
President ``preferential treatment by failing to ask necessary 
questions.''
    Mr. Conrad, you conducted the April 18, 2000 interview with 
the Vice President. Were you restrained by the Attorney General 
from pursuing the questions that you, in your best judgment, 
believed should have been asked at this interview?
    Mr. Conrad. No, sir.
    Mr. Waxman. Did anyone at the Department of Justice 
restrain you from asking the questions that you, in your best 
judgment, believe should have been asked at this interview?
    Mr. Conrad. No, sir.
    Mr. Waxman. As I said earlier today, the minority has 
watched the December 15, 1995 videotape and we listened to the 
enhanced audio tape and we listened to it today as well. I 
can't tell what the tape says. It doesn't sound to me like he 
is saying Riady but it is not clear what the Vice President 
says or whether he said Mr. Riady or John Gotti or whatever.
    Mr. Conrad, why didn't you ask the Vice President about 
this videotape?
    Mr. Conrad. Congressman, I think it would be very 
inappropriate of me to talk about strategic decisions I made 
during the course of an ongoing investigation. I wouldn't be in 
a position to answer that question.
    Mr. Waxman. I accept that.
    Let me ask you this, if it is not inappropriate. Were you 
trying to give the Vice President preferential treatment?
    Mr. Conrad. No, sir.
    Mr. Waxman. Beyond his specific allegations regarding the 
Department of Justice's investigation of the December 1995 
videotape, the chairman has broadly stated that the Department 
campaign finance investigation has intentionally avoided asking 
the Vice President and the President important questions. In 
his July 18 letter to the Attorney General, Mr. Burton said, 
``There is no excuse for your waiting nearly 4 years to ask the 
President about foreign money or ask the Vice President about 
the Hsi Lai Temple.''
    I would like to ask this question of all the members of 
this panel. Do you have any reason to believe that the Attorney 
General tried to prevent the task force attorneys and FBI 
agents that conducted the interviews with the Vice President 
and the President from asking the questions which they believed 
in their best judgment should have been asked?
    Mr. Robinson. I can say unequivocally that the Attorney 
General made no such effort to control the strategic judgment 
calls of prosecutors and investigators in connection with this 
matter at all.
    Mr. Conrad. I can only speak to my involvement in the April 
interviews and I was not impeded in any way from asking 
whatever questions I thought were relevant by the Attorney 
General.
    Mr. Gershel. Congressman, I see no evidence of that 
whatsoever.
    Mr. Waxman. Do you believe that in the interviews with the 
President and Vice President the Department of Justice 
prosecutors were free to ask the questions which in their best 
judgment they believed should have been asked?
    Mr. Conrad. Yes, sir.
    Mr. Waxman. Do you agree with the chairman that the 
Department of Justice's interviews of the Vice President and 
President demonstrate there has been no thorough investigation 
of the President and Vice President?
    Mr. Conrad. I wouldn't want to agree or disagree. I know 
that my approach was to do the best job I could do under the 
circumstances I was in and for good or for ill, that is what I 
attempted to do.
    Mr. Waxman. You have the reputation of being a thorough 
prosecutor, very professional. Do you feel that you have been 
doing a thorough job?
    Mr. Conrad. I believe I have done the best that I could, 
yes, sir.
    Mr. Waxman. We have had a dispute as to whether there ought 
to have been an independent or special counsel. It is clear 
from documents provided to the committee there were vigorous 
arguments within the Department of Justice regarding whether to 
appoint an independent counsel. Mr. Freeh and Mr. Radek have 
testified that these arguments reflected good faith 
disagreement regarding the relevant legal standards.
    Do you gentlemen agree that there is a dispute regarding 
the relevant legal standards?
    Mr. Robinson. I think on this panel, I am probably the only 
one that can at least answer this question since June 1998 
since the others came here after the Independent Counsel Act 
had expired.
    Since I was involved at least since June 1998, and although 
I can tell you that I wasn't particularly happy with the notion 
that all these deliberative documents were released, I can tell 
you I think it wasn't helpful but nevertheless, I think the 
release of those documents make them fully available to anyone 
who wants to read them, to explore the depth of the kind of 
analysis that occurred, honest good faith differences of 
opinion between prosecutors and investigators who are not shy 
about expressing their views.
    I think anybody who looks at the material there will see 
that a lot of thought went into the recommendations that were 
made by the FBI and by prosecutors on the task force, by people 
in the Justice Department, and there were disagreements and the 
Attorney General had to listen to this and look at it carefully 
and ultimately, under the statute that Congress passed, it gave 
her the responsibility of making these judgments. I think the 
record demonstrates that she worked very hard to come up with 
what she thought would be the best decision under the 
circumstances.
    All the experience I have had since June 1998, convinces me 
that she was working strenuously to come up with what she 
thought was the appropriate application of that standard to the 
facts.
    People can disagree but I don't think they should after 
looking at this material about her good faith effort to reach 
absolutely the correct view from her vantage point as the 
decisionmaker under the Independent Counsel Act. The Congress 
gave her that responsibility and I think she did it correctly.
    Mr. Waxman. I appreciate that, Mr. Robinson. So your view 
is that it was a dispute, that it was a good faith disagreement 
regarding relevant legal standards and that went back and forth 
and she had to make the decision.
    Mr. Robinson. As the record demonstrates, I had disputes 
myself between various people at various times, which are 
exhibited in memos that I wrote personally and memos that I 
approved personally. And I think that there was a lot of 
meetings, a lot of debate, a lot of discussion between all the 
parties involved. And just as the Supreme Court often reaches 
decisions on a five to four basis, ultimately the Attorney 
General has to make the call.
    She couldn't make everybody happy, because there was 
disagreement and there were very interesting and difficult 
legal issues involved in each of these decisions.
    Mr. Waxman. Mr. Gershel, I don't know how much you were 
around in those disputes. But from your knowledge and 
experience with this whole Campaign Finance Task Force, is this 
an area where there was a good faith disagreement regarding 
legal standards and the dispute on the question of independent 
counsel or special counsel was presented to the Attorney 
General on that basis?
    Mr. Gershel. Congressman, as Mr. Robinson indicated, I was 
not here at that time. But in a broader sense, in my 
experience, it's certainly very common for prosecutors to 
engage in good faith discussions, disagreements, debates on the 
application of the law, the application of the facts, the 
appropriate way to charge or not charge a case. So it does not 
strike me as unusual at all.
    Mr. Waxman. And Mr. Conrad, you're also relatively new to 
the Campaign Finance Task Force. But what's your view? Were the 
disagreements the result of good faith disagreements about the 
legal standard, as Mr. Radek and Mr. Freeh have testified?
    Mr. Conrad. I really am not in a position to comment at all 
on the independent counsel decisions. I wasn't part of them in 
any way and don't feel like I can comment on them.
    Mr. Waxman. In the case of the Vice President, it appears 
that there was widespread agreement that no case should be 
brought against him. The dispute wasn't primarily about the 
facts, it was more of an academic dispute about who should be 
the decisionmaker. For example, Charles La Bella, in a November 
1997 memo to Mark Richard wrote, ``Ten out of ten prosecutors 
would decide that no further investigation would be 
warranted.'' That's what he said.
    In another memo to Mark Richard on November 30, 1997, Mr. 
La Bella wrote that, ``On the whole, I find the Vice President 
to be credible and forthcoming.'' Similarly, Mr. Litt, another 
experienced prosecutor at the Justice Department, wrote to the 
Attorney General on November 22, 1998, ``As a prosecutor, I 
would not bring this case.''
    Given these and other statements made by investigators 
about the Vice President's case, it seems to me that we're not 
talking about a disagreement regarding the facts. Rather, this 
was a dispute among lawyers and people of good faith as to 
whether the final decision not to bring a case should be made 
by the Attorney General or an independent counsel. Would you 
agree with that, Mr. Robinson?
    Mr. Robinson. I agree, and I think one thing you have here 
that you don't ordinarily have on decisions by prosecutors is 
that under the Independent Counsel Act, in each instance, there 
is a notification filed with the court that described in detail 
the reasoning process. And in addition to that now, we have all 
the underlying memos out there for anybody to examine. I'm sure 
there will be disagreements between people who examine them.
    But I believe people of good faith who understand how this 
works will look at this and say they were honest disagreements 
between people trying to reach the correct decision. That 
certainly was my position when I tried to give my advice to the 
Attorney General and evaluate the kind of information that was 
coming to me to review carefully. I think it's the kind of 
process that Congress had in mind when it created the statute.
    And so I think the record is there that we need not 
speculate about it, it's there for anyone to read. And those 
who haven't, I commend it to them, since it's out there. 
Although I do think it isn't helpful to the deliberative 
process to have these kinds of internal memos. I worry about, 
frankly, whether we're going to get the kind of candid memos 
that we'd like to have in decisionmaking.
    Mr. Waxman. Thank you very much.
    Mr. Conrad, earlier on the other side, you were asked, or 
they made the charge that they thought it was improper for the 
Vice President to release the transcript of his interview. And 
I just wanted to ask you some questions about whether the leak 
was improper. Your memo about the need for a special counsel 
was leaked to Senator Specter.
    And I want to ask you about this. Were you concerned about 
that leak? After all, when you have leaks there are innuendo 
that's often attached to those who want to give a spin the way 
they may want to. Were you concerned about the leak about your 
memo about the need for a special counsel?
    Mr. Conrad. Yes.
    Mr. Waxman. And are you investigating the leak?
    Mr. Conrad. I couldn't comment on that one way or another.
    Mr. Waxman. Do you know how the leak occurred?
    Mr. Conrad. No.
    Mr. Waxman. Do you know how many individuals had access to 
your memo?
    Mr. Conrad. Again, you're asking me questions about the 
internal deliberative process of the----
    Mr. Shays. Could the gentleman get closer to the 
microphone, Mr. Chairman? I'm sorry, I don't mean to be rude, I 
just couldn't hear you.
    Mr. Conrad. You're asking me questions about the internal 
deliberative processes of the Department of Justice on pending 
matters, and I think it would be inappropriate to comment on 
those.
    Mr. Waxman. I don't want to violate your professional views 
on this. But the fact of the matter was that Vice President 
Gore was hurt by the leak of your memo. It was used in a way to 
damage him politically. And that's why I'm asking these 
questions.
    Have you had discussions within the Department of Justice, 
and I won't ask you what they are, but have you had discussions 
to prevent future leaks?
    Mr. Conrad. I think those questions are better, 
respectfully, they're probably better referred to Mr. Robinson.
    Mr. Waxman. OK, Mr. Robinson.
    Mr. Robinson. I have always been concerned about leaks. And 
those of us who come down to Washington from the provinces, as 
the three of us have, have been surprised by the amount of 
leaking that happens. When I was U.S. attorney, I didn't talk 
about pending matters. In this job, I don't talk about pending 
matters to the press. I think it's inappropriate. I think it 
violates prosecutors' professional responsibility.
    I think when people who attempt to influence decisionmaking 
by prosecutors decide that they're going to leak information as 
a general proposition, it hurts law enforcement. It interferes 
with our investigative activities. It causes harm to people who 
may never be charged with a crime.
    So it's a matter of great concern to me. And I think it's 
entirely inappropriate to have this occur. It should not 
happen. I make a point of not doing it. And if I find somebody 
who does it, I think it would be dealt with appropriately. I'm 
sure that that would be true of leaks by members of your staffs 
or by your committees.
    It's not appropriate, it doesn't help the process. It gets 
in the way of your investigative activities, and it can harm 
people improperly and inappropriately. That's why I think we, 
the lawyers have these rules that say they're not supposed to 
talk about pending matters. I take it seriously and always have 
and continue to do it while I have this job.
    Mr. Waxman. Mr. Conrad, my guess is you probably would 
rather not be here today.
    Mr. Conrad. Yes, sir.
    Mr. Waxman. And you'd rather be doing your job of heading 
up this Campaign Finance Task Force, pursuing your case. 
Political charges have been made, they haven't been made about 
you, but they have been made about the Attorney General. And 
you're in charge of the task force. If there are problems in 
the task force doing its job, then they're your problems. And I 
guess the question I really want to have clear is whether you 
are in any way feeling impeded to pursue the most thorough, 
professional and aggressive investigation?
    Mr. Conrad. That was my expectation coming here, that I 
would do a thorough and aggressive investigation. And I'm 
pretty proud of the efforts of the line prosecutors that work 
with me and the agents who have worked on various matters. And 
I, just in June, for example, we obtained plea agreements from 
five different Campaign Finance Task Force defendants, and the 
agreement to cooperate from all five individuals. And that 
cooperation is being pursued. And that's indicative, I think, 
of the active nature of the task force.
    Mr. Robinson. Mr. Waxman, can I say, you made a point that 
no, Mr. Conrad hadn't been accused of anything. And let me just 
say that there have been a few comments. And I want to make it 
quite clear that I think Bob Conrad is doing a fine job and it 
would be inappropriate to impugn his integrity or his 
intentions and any recommendations he's made. I've seen no 
indication that Bob Conrad is doing anything other than a first 
rate job at the task force.
    Mr. Waxman. My question, Mr. Conrad, didn't go to his 
reputation. I accept the fact that he's got a very high 
reputation. My question goes to the question of this task force 
investigation and whether it's being conducted in a thorough, 
professional, aggressive manner, whether by Mr. Conrad or those 
working for him. Mr. Conrad, do you feel that you're doing that 
kind of job or the people working for you are doing that kind 
of job?
    Mr. Conrad. I personally feel that way, yes, sir.
    Mr. Waxman. And do you feel the Attorney General in any way 
is trying to stop you from doing your job?
    Mr. Conrad. No, sir.
    Mr. Waxman. You know, I just want to say from my point of 
view, I want you to do that kind of job. I want you to do a 
fair job, an aggressive job, a thorough job. Follow the 
evidence wherever it may lead. What I don't want is this whole 
thing politicized, and it's inevitable, I suppose, in this 
election year that will continue to be the case. And certainly 
this hearing is a hearing I must tell you I would rather not be 
attending, either. Because I've never been through a more 
ludicrous hearing than this one where these charges are made 
about a tape. I could barely hear the witnesses, let alone 
what's being said on the tape.
    And I don't know what difference it would make whatever 
that was said on the tape. If you're doing the job of looking 
at all the evidence and going after anybody who committed 
crimes, that's what we need from law enforcement, not innuendo 
from the people on this committee who have their own political 
agenda. I thought it was interesting----
    Mr. Burton. The gentleman's time has expired.
    Mr. Waxman. Well, if I can just--I'll abide by the time.
    Mr. Burton. Thank you, Mr. Waxman.
    Let me start off by saying that I'm glad that we have 
civility conferences that you attend, because I hate to think 
of how these meetings would be if you didn't go to those 
civility conferences.
    Let me start off by saying, we had, and I don't want to 
impugn any of your integrity. I think you're all competent and 
honorable men. We had Mr. La Bella and Mr. Freeh and Mr. 
DeSarno before the committee, and they all said that Ms. Reno 
was doing a good job and wasn't partisan and didn't cause any 
problems. And then after 2\1/2\ to 3 years, I received the La 
Bella and Freeh memos. And I'd like to read to you just a 
little bit about what they said in private correspondence with 
the Attorney General.
    Mr. La Bella, you cannot investigate in order to determine 
if there is information concerning a covered person. Rather, it 
seems that this information must just appear, out of the blue, 
I guess. La Bella memo, if these allegations involved anyone 
other than the President, the Vice President, senior White 
House or DNC and Clinton-Gore 1996 officials, an appropriate 
investigation would have commenced months ago without 
hesitation.
    A La Bella memo, the debates appear to have been result 
oriented from the outset. In each case, the desired result was 
to keep the matter out of the reach of the Independent Counsel 
Act. A La Bella memo, the contortions that the Department has 
gone through to avoid investigating these allegations are 
apparent. The La Bella memo, one could argue that the 
Department's treatment of the common cause allegations has been 
marked by gamesmanship rather than an even-handed analysis of 
the issues.
    The La Bella memo, in Loral, avoidance of an Independent 
Counsel Act was accomplished by constructing an investigation 
which ignored the President of the United States, the only real 
target of these allegations. A La Bella memo, it is time to 
approach these issues head on, rather than beginning with a 
desired result and then reasoning backward.
    Steve Clark's memo, never did I dream that the task force 
efforts to air the issue would be met with so much behind the 
scenes maneuvering, personal animosity, distortions of fact and 
contortions of law.
    This isn't me talking. I hope everybody in America will not 
listen to what I'm saying and read the La Bella and Freeh 
memos. Because evidently, what was said directly to the 
Attorney General through these memos was a little bit different 
than the appearance of comity that we saw before this 
committee.
    Now, I'm not faulting Mr. La Bella or Mr. Freeh. I 
understand the position they were in. But when you read their 
memos, they're very clear that they were not happy. Mr. Freeh, 
from the Freeh memo, I have to get my glasses here, because 
this print's a little small, the DOJ attorneys have been 
extremely reluctant to venture into areas that might implicate 
covered persons. This reluctance has led to a flawed 
investigation in several ways. That's the head of the FBI.
    Freeh memo, the chief campaign investigator, Director 
Freeh, has concluded that the investigation presents the 
Department with a political conflict of interest. Political 
conflict of interest.
    Now, if you read the memos, which we could not get, we had 
to force it, after 2\1/2\ years, it's very clear that Mr. La 
Bella and Mr. Freeh felt this went way beyond just a difference 
of opinion.
    Mr. Robinson. Would you like me to comment?
    Mr. Burton. You can comment in a minute.
    Mr. Robinson. Oh, I'm sorry.
    Mr. Burton. In addition to that, Louis Freeh, Larry 
Parkinson, James DeSarno, Robert Litt, Charles La Bella, Robert 
Conrad and Judy Fagan said there should either be an 
independent counsel or a special prosecutor. It wasn't just me. 
It was seven or eight different people at the Justice 
Department.
    Now, I understand the final decision rests with the 
Attorney General. But our argument has been, with all of these 
people making these recommendations, coupled with the Freeh and 
La Bella memos and the reasoning behind them, why in the world 
would she not appoint an independent counsel to investigate 
these things, rather than she and her department investigate 
her boss, the man who appointed her? That's the concern that 
we've had.
    Now, Mr. Robinson, do you have a comment?
    Mr. Robinson. Yes. I would only say this, Mr. Chairman, 
that I think that while, as I indicated, I have some concerns 
about the release of deliberative materials, I think the fact 
that it's all out there and being an old evidence teacher, I 
would refer you to the completeness doctrine. I think it is 
well for people to look at the Freeh and La Bella memos. But 
that isn't what they, they ought to not to stop looking at 
those memos. They ought to look at the entirety of what's out 
there, including the memos, including ones that I wrote and 
others wrote on this very issue, as well as the final decisions 
in each of these instances that were filed.
    Mr. Burton. I have no problem with that. But the problem is 
Justice, even though we sent subpoenas to them, fought us for 
2\1/2\ to 3 years. And only when we finally forced the issue, 
really forced it, did we get them. And they didn't want the 
public to know what was in those memos, because it gave a black 
eye to the Attorney General.
    Now, you may disagree with that. That's why I ask the 
American people and anybody interested to read them themselves 
and make a decision.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    I have more questions, but I'll yield my 5 minutes to Mr. 
Horn so he can ask questions.
    Mr. Horn. Thank you. I thank the gentleman from 
Connecticut.
    I'm a historian by background. And let me start on this 
Independent Counsel Act.
    Once it expired, Justice issued regulations allowing the 
Attorney General to appoint a special counsel in cases where 
criminal investigation of a person or matter is warranted, or 
to investigate or prosecute would present a conflict of 
interest for the Department or ``other extraordinary 
circumstances.'' Justice Public Integrity section handled those 
matters. And they relate to the appointment of special 
counsels.
    Yet when he testified before the committee on June 6, 2000, 
Chief of Public Integrity Section Lee Radek stated that there 
was no pending decisions on appointing special counsels in any 
campaign finance matter. However, by June 22, 2000, a number of 
newspapers reported that the head of the Campaign Financing 
Task Force, Mr. Conrad, had recommended that the Attorney 
General appoint a special counsel to investigate Vice President 
Gore.
    Now, the committee also recommended that the Attorney 
General appoint a special counsel to investigate the White 
House e-mail matter. Again, the Attorney General declined.
    So Mr. Robinson, I'm going to ask you this. Would you 
briefly the process for making a determination of whether the 
Attorney General should appoint a special counsel for a matter? 
What's that process?
    Mr. Robinson. The regulations, as you've indicated, are 
new. And the process I think will evolve from the regulations, 
which are in the Code of Federal Regulations. The standards are 
set out there. We'll have the opportunity to address those 
standards. We're going to make it up the first time we're 
addressing this issue, and we're in the process of evaluating a 
variety of matters that I can't discuss in detail that will 
obviously do that.
    Mr. Horn. Well, what's the role of the Public Integrity 
Section in that process?
    Mr. Robinson. As a general proposition, the people in the 
Public Integrity Section, outstanding career prosecutors that 
have a lot of experience under the Independent Counsel Act over 
many, many years through Republican and Democratic 
administrations, have had a role with regard to the Independent 
Counsel Act, and obviously will have an advisory role, it seems 
to me appropriately, in connection with the regulations. The 
regulations were in large part drafted with the assistance of 
the Public Integrity Section, with people who are used to this 
process and have applied it, I think, very carefully and even-
handedly.
    The way it would ordinarily work, and we're going to have 
to evolve the process, obviously, in connection with the new 
regulations, but I would think Public Integrity would have a 
role. But others in the, anybody within the Department----
    Mr. Horn. How about the people at this table? Would all of 
you have a role in this?
    Mr. Robinson. I would suspect that if it fell within the 
jurisdiction of the Criminal Division, particularly, that would 
be the case. As you know, there are other divisions of the 
Department that arguably have some criminal jurisdiction that 
could be implicated. I mean, if this were a criminal, if there 
were a criminal anti-trust or a criminal environmental matter 
or another matter, you would expect that components, the Tax 
Division, others might be involved.
    I would think that the role of Public Integrity would be 
there as an advisor. But in each of these instances, and I 
think if you can look at the material that you have, other 
sections besides the Public Integrity Section have been 
consulted.
    Mr. Horn. Well, I understand that, it's relevant to the 
type of jurisdiction. But Mr. Radek testified that there were 
no pending decisions on whether to appoint a special counsel 
for any matter related to campaign finance investigations. 
Would you agree with that statement or disagree with it?
    Mr. Robinson. As of when he made it, I'm sure that it was 
correct, according to his likes.
    Mr. Horn. That's June 6th. So nothing's doing, is what it 
sounds like.
    Mr. Robinson. What it sounds to me like is that when Lee 
Radek testified, at that particular juncture, he answered 
correctly.
    Mr. Horn. In other words, that there were no pending 
decisions? Are there any decisions since then or in process?
    Mr. Robinson. There has been public information, leaked 
information, inappropriately leaked information, I think, with 
regard to a recommendation. And I think it would be 
inappropriate for any of us involved in that process to comment 
on that pending matter.
    Mr. Horn. Well, let's go back to the White House e-mail 
matter, which we've all sat here for hours listening to that 
one. The committee had recommended, as we understand it, that a 
special counsel be appointed for the White House e-mail matter 
as early as March 2000. Did anyone at Justice take that request 
seriously?
    Mr. Robinson. I think we always take requests like this 
from Congress seriously. And the answer would be yes. I would 
also say that whether, I think Mr. Radek, somebody indicated 
Mr. Radek's comment, I'm sure may or may not have, was his best 
recollection, whether it was literally true or not at that 
time.
    Mr. Burton. Excuse me, Mr. Horn. Mr. Shays' time has 
expired, and now you have your time.
    Mr. Horn. Thank you, Mr. Chairman.
    Attorney General Reno has not announced whether she intends 
to appoint a special counsel for the White House e-mail matter. 
And were any of you involved in the decisionmaking process for 
the e-mail, for special counsel?
    Mr. Robinson. It would be inappropriate to comment, except 
I would say this. We would be involved in any such 
recommendations.
    Mr. Horn. You certainly would, as Assistant Attorney 
General.
    Mr. Robinson. I certainly would be involved in that. The 
Public Integrity Section reports to me in the Criminal 
Division, as do about 15 other sections.
    Mr. Horn. Has the decision yet been made to appoint that 
special counsel for e-mail? I realize the Attorney General is 
in and out of town. That's what Cabinet officers do. But what 
can you tell us? Is that underway?
    Mr. Robinson. I think that any statement about that would 
have to be made by the Attorney General. Because she'd be the 
one to make the decision.
    Mr. Horn. Did any of you see a conflict in Justice 
defending the White House in a lawsuit regarding e-mails while 
at the same time investigating the e-mail matter? And wouldn't 
that be like a law firm representing both the plaintiff and the 
defendant?
    Mr. Robinson. I think it would be, I think it wouldn't be 
appropriate for me to comment. It is the case that the Civil 
Division is involved in litigation. And the Criminal Division 
is involved in other matters. And that happens with some 
frequency in the Government when the Justice Department has the 
responsibility in two separate areas. They report to two 
different Assistant Attorneys General.
    Mr. Horn. Well, let me move to Mr. Conrad, since time is 
running here. During a July 13th press conference, Attorney 
General Reno stated she received a recommendation to name a 
special counsel to investigate Vice President Gore regarding 
the truthfulness of the statements he made about his 1996 
fundraising activities. Mr. Conrad, did you make such a 
recommendation?
    Mr. Conrad. I think the Attorney General's public comments 
would be as far as anybody at this table could go with respect 
to discussing pending matters. And so I would agree with her 
public comment, yes, sir.
    Mr. Horn. To whom, when you make that recommendation, to 
whom do you submit your recommendation for a special counsel? 
Does it go to the Deputy Attorney General or directly to the 
Attorney General, or through Assistant Attorney General 
Robinson? How does the system work?
    Mr. Conrad. I can tell you my chain of command is up 
through Deputy Assistant Attorney General Alan Gershel, 
Assistant Attorney General Jim Robinson and then to the Deputy 
and the Attorney General.
    Mr. Horn. Is that always the process, or is it just on the 
political problems here, on the conflicts of interest?
    Mr. Conrad. On the significant matters that I've been 
involved with and where significant decisions need to be made, 
that is the process.
    Mr. Horn. And I take it your recommendation was in writing?
    Mr. Conrad. Yes, sir.
    Mr. Horn. It's easier to leak those, I believe. And to whom 
was that recommendation distributed? As we've learned in 
earlier cases, that all sorts of people that were political 
appointees, not necessarily you as the Assistant Attorney 
General, but special assistants and this and that were sort of, 
some of us felt, putting pressure on the Attorney General. So 
who all else is in that room?
    Mr. Conrad. I can tell you that any recommendation on a 
significant matter that I would have for the Attorney General 
would go up through Mr. Robinson.
    Mr. Horn. So you haven't been in the office yet where 
they've got special assistants that might well have strictly a 
political, not a legal or Justice matter?
    Mr. Conrad. I'm sorry, I don't understand your question.
    Mr. Horn. Well, it's a question of, you've written the 
recommendation. It's gone up through the Assistant Attorney 
General. It's gone to the Deputy Attorney General. And it could 
be sitting there. Is it in the Attorney General's office? And 
in some cases it's been shown that she brings in the person 
that writes the memo. And in others, we've learned that you 
have a whole bunch of people that aren't really in the 
hierarchy of the Department of Justice. They're special 
assistants, they're not people in line authority.
    So I just wondered what your kind of treatment is getting, 
is that from the assistants or from the people in line 
authority?
    Mr. Conrad. I meet with the Attorney General personally on 
a weekly basis.
    Mr. Horn. I see. So if she had any questions, you'd know 
all about it. Now, has that happened on recent recommendations 
by you?
    Mr. Conrad. With respect to any pending recommendations, I 
would feel uncomfortable, I would believe it to be 
inappropriate to discuss.
    Mr. Horn. Well, I can understand that.
    Mr. Robinson, have you acted on Mr. Conrad's 
recommendations that a special counsel be appointed? Is there a 
memo covering his memo, at a glance on her desk?
    Mr. Robinson. I think it would be inappropriate, this is 
really a pending matter, and discussing where that is would not 
be appropriate, Mr. Horn.
    Mr. Horn. Well, I can understand that, too. But it just 
seems to me, I would think the hierarchy usually, having been a 
captain assistant years ago, it goes up and people initial, 
etc.
    Mr. Robinson. I will be in the process.
    Mr. Horn. Yes.
    Mr. Robinson. In any such process, I would be involved, and 
I would be making recommendations. But I wouldn't think it 
appropriate for me to comment on what those recommendations 
were or their form. Ultimately, this will be a decision by the 
Attorney General.
    Mr. Horn. But we do know that she has the memo, and not the 
Deputy Attorney General, sitting on the Deputy Attorney 
General's desk.
    Mr. Robinson. I don't know that you know that from us.
    Mr. Horn. No.
    Mr. Shays [presiding]. Thank you. I thank the gentleman, 
his time has expired. And we'll go with Mrs. Chenoweth-Hage, 
you have the floor for 5 minutes.
    Mrs. Chenoweth-Hage. Thank you, Mr. Chairman.
    Mr. Conrad, you stated that you thought it was not 
unprecedented to transcribe meetings, such as the meeting you 
had with the Vice President, Al Gore. Do you feel that any of 
the information contained in those transcripts could have or 
did undermine your investigation?
    Mr. Conrad. I think my testimony was that I heard Mr. 
Waxman talk about other precedents that I had previously been 
unaware of. So I don't know whether I--I didn't intend to 
testify that there was precedent for the actions I took.
    What I did testify to and what I believe today is that the 
way in which the Vice President's examination was set up, and 
the form that it occurred, was in the best interest of our task 
force investigation. And--I think I lost the train of your 
question in the midst of my answer. If you could ask me again.
    Mrs. Chenoweth-Hage. Let me ask you another way. As a 
matter of policy there at the Department, is it usual to 
transcribe these kinds of interviews?
    Mr. Conrad. I think it's one of the investigative tools 
that you have at your disposal, and was chosen by me in this 
circumstance because I believed it to be the best thing.
    Mrs. Chenoweth-Hage. I see. But can you say it doesn't 
happen in every case?
    Mr. Conrad. Oh, yes. Oftentimes witnesses are interviewed 
either in the grand jury, where grand jury rules apply, or 
interviewed by FBI agents, in which there is a summary of 
interview prepared. But there are myriad ways in which we go 
about gathering information, the sworn transcript form being 
one of those ways.
    Mrs. Chenoweth-Hage. Could you explain to me why General 
Reno might assert that there was information in that particular 
interview, the third one, I believe, that could undermine your 
investigation and yet the transcript was released to the press? 
Just to remind you, Mr. Conrad, she made that assertion in a 
letter to Chairman Burton on May 3rd, and I think you have a 
copy of it.
    Mr. Conrad. I don't, I don't wish to engage in semantics 
with you. But the fact is, we never released anything. The 
deposition was done, the transcripts were prepared. We got one, 
the witness got one. That is what happens in a deposition 
context, and that's basically what was going on with the 
examination of the Vice President.
    What the Vice President did with that transcript is his 
business, his decision, and we had no part in releasing 
anything that led to that situation.
    Mrs. Chenoweth-Hage. Well, let me ask you this, do you feel 
that any of the information contained in those transcripts 
could have undermined your investigation?
    Mr. Conrad. I would think it would be inappropriate for me 
sitting here today with pending investigations ongoing to 
comment on the impact on those investigations. I think it would 
be entirely outside the scope of my ethical responsibilities.
    Mrs. Chenoweth-Hage. Well, let me ask you on another 
subject. If the Vice President was called to the grand jury, 
then would there have been a transcript at that time, for the 
Vice President?
    Mr. Conrad. If any grand jury witness, the process would be 
that the witness appears before a grand jury, a transcript is 
most often prepared. But grand jury rules would apply to that 
transcript.
    Mrs. Chenoweth-Hage. And is it usual, then, in every case, 
that the witness would have gotten a copy of the transcript?
    Mr. Conrad. No. If it were a grand jury witness, then grand 
jury rules would apply, and the witness might or might not get 
a copy of the transcript, depending on the stage of the 
judicial proceeding, orders of the court or other examples of 
getting a transcript. A witness could get a transcript, but 
they wouldn't normally do that until a certain stage in a 
judicial proceeding.
    Mrs. Chenoweth-Hage. I just have one final question. Why 
didn't you call the Vice President in front of the grand jury 
then?
    Mr. Conrad. I think that question would call for a 
strategic response from me, and I think it's outside the 
purview of what I can talk about publicly in terms of ongoing 
pending matters.
    Mrs. Chenoweth-Hage. Thank you, Mr. Conrad.
    Mr. Shays. The gentlelady's time has expired, and Mr. 
Waxman, you have, for your second round, you have time.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Before today's hearing, Chairman Burton has often used the 
Freeh and La Bella memos to try to illustrate his point, which 
I think is a political point. And that is that the 
investigation is not on the level. It's not a fair 
investigation.
    Which means to me that, even though they said under oath 
that they were conducting their investigation without any 
interference and honestly, fairly, and freely, that they, you'd 
have to interpret what the chairman has said as that, even 
though they testified to that under oath, that wasn't really 
reflective of their real views. And I guess I, because of that, 
have to try to clearly get on the record a statement, your 
testimony. You've all answered this. You've all given answers 
to my questions about it.
    So let me ask, so far as your personal knowledge, each of 
the three of you, the question of whether appointing an 
independent counsel is one that should be interpreted as a 
legal dispute between people with different points of view, or 
whether we should look at it as one of the Attorney General 
trying to protect the President or the Vice President? Mr. 
Robinson.
    Mr. Robinson. Well, I can say that when I took this 
position, Chuck La Bella was still head of the task force, Jim 
DeSarno was still there. I worked with them. I think Chuck is 
an able, tough prosecutor. I think the agents that were 
assigned to the task force were good agents. I think they're 
still good agents, good prosecutors. I think they were working 
hard to investigate these cases thoroughly and appropriately.
    The disagreement was over the Independent Counsel Act. And 
there were disagreements and they're all out there for anyone 
to read. And I think they're reasonable, good faith, hard 
fought disagreements. There are some adjectives in some of the 
memos that I'm sure might not have been said if they thought it 
was going to be published on the front page of the New York 
Times, some tough language. But lawyers get tough with each 
other.
    We had spirited discussions, good faith discussions.
    Mr. Waxman. Mr. Gershel.
    Mr. Gershel. Mr. Waxman, I got here after the statute 
expired, and also, I have no prior experience with the 
independent counsel statute.
    But as I indicated earlier, these kinds of exchanges are 
quite normal. What did surprise me was that in fact so much was 
written about this, so many memos, so many people were able to 
express their opinions and discuss the issue. And that was more 
than I had seen in my experience.
    Mr. Waxman. And Mr. Conrad, let me ask you the same 
question, but let me ask it also in a different way. Because I 
want you to pursue an honest, thorough, aggressive 
investigation. I think that's what the American people want you 
to do. That's your job.
    And I want to know whether you feel that the Attorney 
General, as she listens to the legal dispute over the 
independent counsel, whether one should or shouldn't be 
appointed, and regarding your contacts with her, do you in any 
way feel you're being interfered with or being kept from doing 
a professional, competent investigation?
    Mr. Conrad. It's a frustrating situation being here. You 
have a disagreement with Chairman Burton, and I don't have a 
bone to pick with you, nor do I have a bone to pick with----
    Mr. Waxman. Nor do I have with you.
    Mr. Conrad [continuing]. Chairman Burton. But you're asking 
me to agree or disagree with the chairman's view of things or 
you, your view of things.
    Mr. Waxman. No, no. I'm asking you, from your personal 
knowledge and experience, as the head of this task force, if 
this is not an honest, on-the-level task force, doing an 
aggressive, thorough job, that means you're not doing that job, 
or you're being kept from doing that job. Are you doing that 
kind of job? Or are you being kept from doing that kind of job?
    Mr. Conrad. I think the matters that have come within my 
purview in the 7-months that I've been on the task force, that 
I have looked at things aggressively with other line assistants 
and other agents and I've pursued those things. And I don't 
feel that I've been impeded in any way.
    Mr. Waxman. Now, you've said that under oath. Would you say 
something privately than what you've said here in your 
testimony here today? Is this your view? Privately and publicly 
and under oath, under penalty of perjury?
    Mr. Conrad. That is my view.
    Mr. Waxman. I don't have much time left. I was going to ask 
if there's anything else you wanted to add. Anything else, Mr. 
Conrad, you want to say about all this.
    Mr. Conrad. No, sir.
    Mr. Waxman. I wish you can get back to work as fast as 
possible. Thank you.
    Mr. Shays. This time, Mr. LaTourette, you have the floor 
for 5 minutes.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Part of the discussion on the independent counsel, it's not 
only what Mr. Waxman was talking about, and that is, is the 
Attorney General interfering, but what we were always told on 
the committee is that in some instances, we don't need an 
independent counsel because the task force can take care of it 
in-house.
    And I want to ask a series of questions about some people 
that have come before the committee, and like Mr. Barr, I 
served as a State prosecutor before this service. And some of 
the things that we've received back from the White House have 
caused me to have some questions that I'd like to ask you.
    A few weeks ago, we sent a subpoena down to the White 
House, and asked them for all the subpoenas and documents, 
document requests that they had received from the Justice 
Department relative to the task force's work. The subpoenas 
that we received back, at least what we've reviewed so far, 
indicate that Maria Hsia, who was involved with the Hsi Lai 
Temple, was never the subject of a subpoena request of the 
White House. And I guess in turn, I'd ask you, Mr. Robinson, 
you, Mr. Conrad, and you, Mr. Gershel, are you aware of a 
subpoena to the White House for documents in their possession 
relating to Maria Hsia that we haven't received?
    Mr. Robinson. Well, I would say two things. No. 1, I'm not 
sure what you would or would not have received. I'm sure that 
you're also aware that it wouldn't be appropriate for us to 
comment on any grand jury subpoenas one way or the other. I 
think 6(e) is pretty clear, and I certainly wouldn't venture 
into violating that rule or commenting on a pending matter. It 
wouldn't be appropriate.
    Mr. LaTourette. Well, let me ask you this. Is there any 
subpoena that you're aware of that the task force has sent to 
the White House relative to Maria Hsia that you could talk 
about?
    Mr. Robinson. No. I'm not, I think it wouldn't be 
appropriate for us to comment on subpoenas to anyone. And I 
think the rules would be violated if we were to do that.
    Mr. LaTourette. Maria Hsia has been prosecuted by the 
Justice Department, though, hasn't she?
    Mr. Robinson. Absolutely. And convicted. And is awaiting 
sentencing at the moment. And as I indicated in my statement, 
as a result of Mr. Conrad's testimony about a month ago, we 
have a motion to dismiss the indictment, based upon things that 
were said, even though I think Mr. Conrad was quite right in 
not answering questions about the details of the investigation.
    Mr. LaTourette. Let me ask you this. Based upon your 
experience, and Mr. Conrad and Mr. Gershel, you jump in, too, 
do you think that it is plausible that you could have conducted 
a prosecution of Maria Hsia without knowing or subpoenaing 
documents from the White House relative to what contact they 
had had with her?
    Mr. Robinson. Well, I wouldn't comment on the subpoenas, 
except to say that we obviously conducted a successful 
prosecution, since we obtained a conviction.
    Mr. LaTourette. Well, here's what troubles me. And if we 
could put on the screen exhibits 2 and 3. These are documents 
that you used, or the Department used, during the prosecution 
of Maria Hsia. As I look at the stamps, it doesn't show that 
you got those documents from the White House, even though they 
appear to be memos written to people within, in one instance, 
the Office of the Vice President. Matter of fact, they both 
appear to be.
    But you got those from the Senate committee, Senator 
Thompson's committee. And I'm just wondering why it is that, 
why it is that you used documents that you received from a 
Senate committee and not documents that were received from the 
White House? And I continue to be troubled as to how you could 
conduct a prosecution, I understand you did and I understand 
you got a conviction. But in the realm of, is this an effective 
investigation in terms of following down all leads, I guess I'm 
at a loss as to why you used Senate documents and not documents 
that you used from the White House, unless you never sent the 
White House a subpoena.
    Mr. Robinson. I think I've already indicated it wouldn't be 
appropriate for us to comment on grand jury subpoenas, and we 
just couldn't do it. I accept your statement, but I'm not at 
liberty to respond. I'd leave it to whether Bob or Alan want to 
jump in.
    Mr. LaTourette. All right, well, let me move on to a couple 
of other people then. Again, in documents that we received from 
the White House in response to a subpoena, we also have asked 
about fellows named Ernie Green and Mark Middleton. And at 
least I can tell you that this committee subpoenaed the White 
House for documents relative to Ernie Green in 1997, over 3 
years ago. And if I remember right, in March 1999, the 
committee made a referral to the Department of Justice on Ernie 
Green on a purported charge of perjury.
    Now, the records that we got from the White House do show 
that the Justice Department issued a subpoena to the White 
House for Mr. Green in March 2000, a year after the referral 
was made. Is it an appropriate question to ask you why the task 
force waited for a full year before acting on information that 
was sort of gift wrapped and handed over from the committee?
    Mr. Robinson. It might be appropriate for you to ask the 
question, but it would be inappropriate for me to answer it.
    Mr. LaTourette. I see my time's expired, and I'll come back 
to this another time.
    Mr. Shays. I thank the gentleman.
    Mr. Barr, you are finishing this last round. You have 5 
minutes.
    Mr. Barr. Thank you.
    Mr. Conrad, I know you're familiar with the transcript that 
we've all been talking about here today, of your April 18, 2000 
interview with the Vice President. That's certainly an accurate 
statement, isn't it, that you're familiar with it?
    Mr. Conrad. Yes, sir.
    Mr. Barr. I and a number of others have gone through it 
also, and while there is discussion of White House coffees, 
it's really not pursued in any length. There's just some 
passing reference to it, a discussion of how many Mr. Gore may 
or may not have gone to. But there was no discussion at all of 
the particular coffee in December 1995, the December 15, 1995, 
the tape of which we saw earlier.
    That is correct, isn't it? I'm not asking you to comment on 
any pending investigation. I'm just saying, in this document, 
which is already public, there's no discussion of that 
particular coffee, is there?
    Mr. Conrad. Congressman Barr, you are asking me questions, 
you are asking me questions about a pending matter. And that 
document does speak for itself. The questions are either in 
there or not in there.
    Mr. Barr. Let me be more specific. Is there a discussion in 
this document of how many coffees Albert Gore attended? The 
answer is yes to that. I mean, is that correct? You conducted 
the interview?
    Mr. Conrad. I did. And that is correct, yes.
    Mr. Barr. OK. Is there any discussion in here of a 
particular coffee on December 15, 1995? And I'm just talking 
about this document, which is already public.
    Mr. Conrad. Right. I think that document speaks for itself. 
And I'm not trying to engage in verbal games in any way with 
you. But you are, you're asking me----
    Mr. Barr. I think that you all are. I really do.
    Mr. Conrad. You're asking me about a pending matter.
    Mr. Barr. All I'm trying to--what we're left with here, and 
this is why it makes it so difficult and so easy for Mr. Waxman 
to claim that we're badgering witnesses, because you won't 
answer questions. That's why. I'm not asking you to analyze 
something that may be evidence in the case. I'm not asking you 
to comment on other evidence. I'm asking you about a public 
document.
    The fact of the matter is, since you won't answer any 
questions about it, and I think you are hiding behind a 
technicality, I think you all are using it as a shield to avoid 
having it made apparent that you all haven't gone into 
something that on its face is, very clear evidence that the 
Vice President, in December 1995, just a few days after showing 
these ad tapes, paid for by heavy hitters, contributors, goes 
to a White House coffee, sees that Mr. Wiriadinata is there, 
who identifies himself to the President, who is just a few 
paces ahead of the Vice President, as somebody who James Riady 
sent, and then we hear the Vice President's voice say to that 
person, we ought to have Mr. Riady see some of those ad tapes.
    Now, you all can sit there like see no evil, hear no evil, 
speak no evil, with your hands over your ears and your hands 
over your eyes, and your mouths glued shut. But the fact of the 
matter is, that is evidence. That is evidence that the Vice 
President knew that those ads were being paid for by foreign 
money. That is evidence that the President knew there was a 
connection between those ads and Mr. Riady.
    And yet to get you all to admit that might be relevant, you 
won't even admit that. I mean, this is what we don't 
understand.
    Mr. Conrad. I'm sorry you feel like I'm hiding behind a 
technicality. But from my perspective, sitting here, that 
technicality is my bar license. And I think there are ethical 
responsibilities, as a prosector, that I know you are aware of 
and abided by when you were a prosecutor. And I honestly 
believe that those restrictions prevent me from answering your 
question.
    Mr. Barr. Well, and then, but it just goes on and on. And I 
asked earlier about this CNN story, that had a Justice 
Department source quoting, saying the tape is unclear. Well, 
what tape was this Justice Department source listening to? Now 
we go back to the tape here, and I asked Mr. Robinson if he 
understood what was on the tape. Gee, I don't know, I can't 
say.
    You are hiding behind it. I mean, to sit here, it just 
stretches credibility to say, you're sitting here and we play a 
tape, and you won't even tell us whether you hear what's on the 
tape because it might be evidence. Yes, it might be evidence. 
We want it to be evidence in this case. It isn't so far because 
you all haven't done anything with it.
    You had a perfect opportunity, interviewing the Vice 
President, to ask him about a piece of very relevant evidence, 
and you all chose not to. We'd like to know why, but you all 
won't tell us. That's why it's very frustrating. We cannot 
properly conduct the oversight responsibility that you all pay 
lip service to, because we can't even find out answers to basic 
common sense questions about whether or not you hear what's on 
a tape.
    Mr. Conrad. I know it's frustrating for you. It's 
frustrating for me as well. Because when you ask me to comment, 
you're asking for my mental processes, my analysis of things 
that involve ongoing, pending matters. And you're asking me to 
comment in a way that I think is outside----
    Mr. Barr. But you won't even acknowledge whether something 
is on the record or off the record, when the document is right 
here and it's clear that it's not. I just think that you're 
taking it to extremes that rule was unintended to be taken to.
    Mr. Shays. The gentleman's time has expired.
    This is now my time. But before we start the clock, I'd ask 
unanimous consent that a set of exhibits to be used in today's 
hearings be included in the record. And without objection, so 
ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4429.022
    
    [GRAPHIC] [TIFF OMITTED] T4429.023
    
    [GRAPHIC] [TIFF OMITTED] T4429.024
    
    [GRAPHIC] [TIFF OMITTED] T4429.025
    
    [GRAPHIC] [TIFF OMITTED] T4429.026
    
    [GRAPHIC] [TIFF OMITTED] T4429.027
    
    [GRAPHIC] [TIFF OMITTED] T4429.028
    
    [GRAPHIC] [TIFF OMITTED] T4429.029
    
    [GRAPHIC] [TIFF OMITTED] T4429.030
    
    [GRAPHIC] [TIFF OMITTED] T4429.031
    
    [GRAPHIC] [TIFF OMITTED] T4429.032
    
    [GRAPHIC] [TIFF OMITTED] T4429.033
    
    [GRAPHIC] [TIFF OMITTED] T4429.034
    
    Mr. Barr. Mr. Chairman, could I ask unanimous consent to 
include the transcript to which we've been referring, that is, 
the testimony of Vice President Albert Gore, Jr., Tuesday, 
April 18, 2000, conducted by Mr. Conrad and others, be included 
in the record?
    Mr. Shays. If it's not included, it should be. And without 
objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4429.035
    
    [GRAPHIC] [TIFF OMITTED] T4429.036
    
    [GRAPHIC] [TIFF OMITTED] T4429.037
    
    [GRAPHIC] [TIFF OMITTED] T4429.038
    
    [GRAPHIC] [TIFF OMITTED] T4429.039
    
    [GRAPHIC] [TIFF OMITTED] T4429.040
    
    [GRAPHIC] [TIFF OMITTED] T4429.041
    
    [GRAPHIC] [TIFF OMITTED] T4429.042
    
    [GRAPHIC] [TIFF OMITTED] T4429.043
    
    [GRAPHIC] [TIFF OMITTED] T4429.044
    
    [GRAPHIC] [TIFF OMITTED] T4429.045
    
    [GRAPHIC] [TIFF OMITTED] T4429.046
    
    [GRAPHIC] [TIFF OMITTED] T4429.047
    
    [GRAPHIC] [TIFF OMITTED] T4429.048
    
    [GRAPHIC] [TIFF OMITTED] T4429.049
    
    [GRAPHIC] [TIFF OMITTED] T4429.050
    
    [GRAPHIC] [TIFF OMITTED] T4429.051
    
    [GRAPHIC] [TIFF OMITTED] T4429.052
    
    [GRAPHIC] [TIFF OMITTED] T4429.053
    
    [GRAPHIC] [TIFF OMITTED] T4429.054
    
    [GRAPHIC] [TIFF OMITTED] T4429.055
    
    [GRAPHIC] [TIFF OMITTED] T4429.056
    
    [GRAPHIC] [TIFF OMITTED] T4429.057
    
    [GRAPHIC] [TIFF OMITTED] T4429.058
    
    [GRAPHIC] [TIFF OMITTED] T4429.059
    
    [GRAPHIC] [TIFF OMITTED] T4429.060
    
    [GRAPHIC] [TIFF OMITTED] T4429.061
    
    [GRAPHIC] [TIFF OMITTED] T4429.062
    
    [GRAPHIC] [TIFF OMITTED] T4429.063
    
    [GRAPHIC] [TIFF OMITTED] T4429.064
    
    [GRAPHIC] [TIFF OMITTED] T4429.065
    
    [GRAPHIC] [TIFF OMITTED] T4429.066
    
    [GRAPHIC] [TIFF OMITTED] T4429.067
    
    [GRAPHIC] [TIFF OMITTED] T4429.068
    
    [GRAPHIC] [TIFF OMITTED] T4429.069
    
    [GRAPHIC] [TIFF OMITTED] T4429.070
    
    [GRAPHIC] [TIFF OMITTED] T4429.071
    
    [GRAPHIC] [TIFF OMITTED] T4429.072
    
    [GRAPHIC] [TIFF OMITTED] T4429.073
    
    [GRAPHIC] [TIFF OMITTED] T4429.074
    
    [GRAPHIC] [TIFF OMITTED] T4429.075
    
    [GRAPHIC] [TIFF OMITTED] T4429.076
    
    [GRAPHIC] [TIFF OMITTED] T4429.077
    
    [GRAPHIC] [TIFF OMITTED] T4429.078
    
    [GRAPHIC] [TIFF OMITTED] T4429.079
    
    [GRAPHIC] [TIFF OMITTED] T4429.080
    
    [GRAPHIC] [TIFF OMITTED] T4429.081
    
    [GRAPHIC] [TIFF OMITTED] T4429.082
    
    [GRAPHIC] [TIFF OMITTED] T4429.083
    
    [GRAPHIC] [TIFF OMITTED] T4429.084
    
    [GRAPHIC] [TIFF OMITTED] T4429.085
    
    [GRAPHIC] [TIFF OMITTED] T4429.086
    
    [GRAPHIC] [TIFF OMITTED] T4429.087
    
    [GRAPHIC] [TIFF OMITTED] T4429.088
    
    [GRAPHIC] [TIFF OMITTED] T4429.089
    
    [GRAPHIC] [TIFF OMITTED] T4429.090
    
    [GRAPHIC] [TIFF OMITTED] T4429.091
    
    [GRAPHIC] [TIFF OMITTED] T4429.092
    
    [GRAPHIC] [TIFF OMITTED] T4429.093
    
    [GRAPHIC] [TIFF OMITTED] T4429.094
    
    [GRAPHIC] [TIFF OMITTED] T4429.095
    
    [GRAPHIC] [TIFF OMITTED] T4429.096
    
    [GRAPHIC] [TIFF OMITTED] T4429.097
    
    [GRAPHIC] [TIFF OMITTED] T4429.098
    
    [GRAPHIC] [TIFF OMITTED] T4429.099
    
    [GRAPHIC] [TIFF OMITTED] T4429.100
    
    [GRAPHIC] [TIFF OMITTED] T4429.101
    
    [GRAPHIC] [TIFF OMITTED] T4429.102
    
    [GRAPHIC] [TIFF OMITTED] T4429.103
    
    [GRAPHIC] [TIFF OMITTED] T4429.104
    
    [GRAPHIC] [TIFF OMITTED] T4429.105
    
    [GRAPHIC] [TIFF OMITTED] T4429.106
    
    [GRAPHIC] [TIFF OMITTED] T4429.107
    
    [GRAPHIC] [TIFF OMITTED] T4429.108
    
    [GRAPHIC] [TIFF OMITTED] T4429.109
    
    [GRAPHIC] [TIFF OMITTED] T4429.110
    
    [GRAPHIC] [TIFF OMITTED] T4429.111
    
    [GRAPHIC] [TIFF OMITTED] T4429.112
    
    [GRAPHIC] [TIFF OMITTED] T4429.113
    
    [GRAPHIC] [TIFF OMITTED] T4429.114
    
    [GRAPHIC] [TIFF OMITTED] T4429.115
    
    [GRAPHIC] [TIFF OMITTED] T4429.116
    
    [GRAPHIC] [TIFF OMITTED] T4429.117
    
    [GRAPHIC] [TIFF OMITTED] T4429.118
    
    [GRAPHIC] [TIFF OMITTED] T4429.119
    
    [GRAPHIC] [TIFF OMITTED] T4429.120
    
    [GRAPHIC] [TIFF OMITTED] T4429.121
    
    [GRAPHIC] [TIFF OMITTED] T4429.122
    
    [GRAPHIC] [TIFF OMITTED] T4429.123
    
    [GRAPHIC] [TIFF OMITTED] T4429.124
    
    [GRAPHIC] [TIFF OMITTED] T4429.125
    
    [GRAPHIC] [TIFF OMITTED] T4429.126
    
    [GRAPHIC] [TIFF OMITTED] T4429.127
    
    [GRAPHIC] [TIFF OMITTED] T4429.128
    
    [GRAPHIC] [TIFF OMITTED] T4429.129
    
    [GRAPHIC] [TIFF OMITTED] T4429.130
    
    [GRAPHIC] [TIFF OMITTED] T4429.131
    
    [GRAPHIC] [TIFF OMITTED] T4429.132
    
    [GRAPHIC] [TIFF OMITTED] T4429.133
    
    [GRAPHIC] [TIFF OMITTED] T4429.134
    
    [GRAPHIC] [TIFF OMITTED] T4429.135
    
    [GRAPHIC] [TIFF OMITTED] T4429.136
    
    [GRAPHIC] [TIFF OMITTED] T4429.137
    
    [GRAPHIC] [TIFF OMITTED] T4429.138
    
    [GRAPHIC] [TIFF OMITTED] T4429.139
    
    [GRAPHIC] [TIFF OMITTED] T4429.140
    
    [GRAPHIC] [TIFF OMITTED] T4429.141
    
    [GRAPHIC] [TIFF OMITTED] T4429.142
    
    [GRAPHIC] [TIFF OMITTED] T4429.143
    
    [GRAPHIC] [TIFF OMITTED] T4429.144
    
    [GRAPHIC] [TIFF OMITTED] T4429.145
    
    [GRAPHIC] [TIFF OMITTED] T4429.146
    
    [GRAPHIC] [TIFF OMITTED] T4429.147
    
    [GRAPHIC] [TIFF OMITTED] T4429.148
    
    [GRAPHIC] [TIFF OMITTED] T4429.149
    
    [GRAPHIC] [TIFF OMITTED] T4429.150
    
    [GRAPHIC] [TIFF OMITTED] T4429.151
    
    [GRAPHIC] [TIFF OMITTED] T4429.152
    
    [GRAPHIC] [TIFF OMITTED] T4429.153
    
    [GRAPHIC] [TIFF OMITTED] T4429.154
    
    [GRAPHIC] [TIFF OMITTED] T4429.155
    
    [GRAPHIC] [TIFF OMITTED] T4429.156
    
    [GRAPHIC] [TIFF OMITTED] T4429.157
    
    [GRAPHIC] [TIFF OMITTED] T4429.159
    
    [GRAPHIC] [TIFF OMITTED] T4429.160
    
    [GRAPHIC] [TIFF OMITTED] T4429.161
    
    [GRAPHIC] [TIFF OMITTED] T4429.162
    
    [GRAPHIC] [TIFF OMITTED] T4429.163
    
    [GRAPHIC] [TIFF OMITTED] T4429.164
    
    [GRAPHIC] [TIFF OMITTED] T4429.165
    
    [GRAPHIC] [TIFF OMITTED] T4429.166
    
    [GRAPHIC] [TIFF OMITTED] T4429.167
    
    [GRAPHIC] [TIFF OMITTED] T4429.168
    
    [GRAPHIC] [TIFF OMITTED] T4429.169
    
    [GRAPHIC] [TIFF OMITTED] T4429.170
    
    [GRAPHIC] [TIFF OMITTED] T4429.171
    
    [GRAPHIC] [TIFF OMITTED] T4429.172
    
    [GRAPHIC] [TIFF OMITTED] T4429.173
    
    [GRAPHIC] [TIFF OMITTED] T4429.174
    
    [GRAPHIC] [TIFF OMITTED] T4429.175
    
    [GRAPHIC] [TIFF OMITTED] T4429.176
    
    [GRAPHIC] [TIFF OMITTED] T4429.177
    
    [GRAPHIC] [TIFF OMITTED] T4429.178
    
    [GRAPHIC] [TIFF OMITTED] T4429.179
    
    [GRAPHIC] [TIFF OMITTED] T4429.180
    
    [GRAPHIC] [TIFF OMITTED] T4429.181
    
    [GRAPHIC] [TIFF OMITTED] T4429.182
    
    [GRAPHIC] [TIFF OMITTED] T4429.183
    
    [GRAPHIC] [TIFF OMITTED] T4429.184
    
    [GRAPHIC] [TIFF OMITTED] T4429.185
    
    [GRAPHIC] [TIFF OMITTED] T4429.186
    
    [GRAPHIC] [TIFF OMITTED] T4429.187
    
    [GRAPHIC] [TIFF OMITTED] T4429.188
    
    [GRAPHIC] [TIFF OMITTED] T4429.189
    
    [GRAPHIC] [TIFF OMITTED] T4429.190
    
    [GRAPHIC] [TIFF OMITTED] T4429.191
    
    [GRAPHIC] [TIFF OMITTED] T4429.192
    
    [GRAPHIC] [TIFF OMITTED] T4429.193
    
    [GRAPHIC] [TIFF OMITTED] T4429.194
    
    [GRAPHIC] [TIFF OMITTED] T4429.195
    
    [GRAPHIC] [TIFF OMITTED] T4429.196
    
    [GRAPHIC] [TIFF OMITTED] T4429.197
    
    [GRAPHIC] [TIFF OMITTED] T4429.198
    
    [GRAPHIC] [TIFF OMITTED] T4429.199
    
    [GRAPHIC] [TIFF OMITTED] T4429.200
    
    [GRAPHIC] [TIFF OMITTED] T4429.201
    
    [GRAPHIC] [TIFF OMITTED] T4429.202
    
    [GRAPHIC] [TIFF OMITTED] T4429.203
    
    [GRAPHIC] [TIFF OMITTED] T4429.204
    
    [GRAPHIC] [TIFF OMITTED] T4429.205
    
    [GRAPHIC] [TIFF OMITTED] T4429.206
    
    [GRAPHIC] [TIFF OMITTED] T4429.207
    
    [GRAPHIC] [TIFF OMITTED] T4429.208
    
    [GRAPHIC] [TIFF OMITTED] T4429.209
    
    [GRAPHIC] [TIFF OMITTED] T4429.210
    
    [GRAPHIC] [TIFF OMITTED] T4429.211
    
    [GRAPHIC] [TIFF OMITTED] T4429.212
    
    [GRAPHIC] [TIFF OMITTED] T4429.213
    
    [GRAPHIC] [TIFF OMITTED] T4429.214
    
    [GRAPHIC] [TIFF OMITTED] T4429.215
    
    [GRAPHIC] [TIFF OMITTED] T4429.216
    
    [GRAPHIC] [TIFF OMITTED] T4429.217
    
    [GRAPHIC] [TIFF OMITTED] T4429.218
    
    [GRAPHIC] [TIFF OMITTED] T4429.219
    
    [GRAPHIC] [TIFF OMITTED] T4429.220
    
    [GRAPHIC] [TIFF OMITTED] T4429.221
    
    [GRAPHIC] [TIFF OMITTED] T4429.222
    
    [GRAPHIC] [TIFF OMITTED] T4429.223
    
    [GRAPHIC] [TIFF OMITTED] T4429.224
    
    [GRAPHIC] [TIFF OMITTED] T4429.225
    
    [GRAPHIC] [TIFF OMITTED] T4429.226
    
    [GRAPHIC] [TIFF OMITTED] T4429.227
    
    [GRAPHIC] [TIFF OMITTED] T4429.228
    
    [GRAPHIC] [TIFF OMITTED] T4429.229
    
    [GRAPHIC] [TIFF OMITTED] T4429.230
    
    [GRAPHIC] [TIFF OMITTED] T4429.231
    
    [GRAPHIC] [TIFF OMITTED] T4429.232
    
    [GRAPHIC] [TIFF OMITTED] T4429.233
    
    [GRAPHIC] [TIFF OMITTED] T4429.234
    
    [GRAPHIC] [TIFF OMITTED] T4429.235
    
    [GRAPHIC] [TIFF OMITTED] T4429.236
    
    [GRAPHIC] [TIFF OMITTED] T4429.237
    
    [GRAPHIC] [TIFF OMITTED] T4429.238
    
    [GRAPHIC] [TIFF OMITTED] T4429.239
    
    [GRAPHIC] [TIFF OMITTED] T4429.240
    
    [GRAPHIC] [TIFF OMITTED] T4429.241
    
    [GRAPHIC] [TIFF OMITTED] T4429.242
    
    [GRAPHIC] [TIFF OMITTED] T4429.243
    
    [GRAPHIC] [TIFF OMITTED] T4429.244
    
    [GRAPHIC] [TIFF OMITTED] T4429.245
    
    [GRAPHIC] [TIFF OMITTED] T4429.246
    
    [GRAPHIC] [TIFF OMITTED] T4429.247
    
    [GRAPHIC] [TIFF OMITTED] T4429.248
    
    [GRAPHIC] [TIFF OMITTED] T4429.249
    
    [GRAPHIC] [TIFF OMITTED] T4429.250
    
    [GRAPHIC] [TIFF OMITTED] T4429.251
    
    [GRAPHIC] [TIFF OMITTED] T4429.252
    
    [GRAPHIC] [TIFF OMITTED] T4429.253
    
    [GRAPHIC] [TIFF OMITTED] T4429.254
    
    Mr. Shays. If it's not included, also without objection, 
the letter to Mr. Burton from Attorney General of May 3rd, 
denying us that transcript. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4429.255
    
    [GRAPHIC] [TIFF OMITTED] T4429.256
    
    [GRAPHIC] [TIFF OMITTED] T4429.257
    
    [GRAPHIC] [TIFF OMITTED] T4429.258
    
    Mr. Shays. I now have my 5 minutes. I'd like to ask you, 
Mr. Raben, if the Vice President was given a copy of his 
transcript and all the exhibits to the interview, and he was 
allowed to provide that interview in evidence to the media, why 
did the Justice Department fail to provide Congress with the 
same information when we subpoenaed it?
    Mr. Raben. I think you've reversed the sequence, the denial 
to Congress preceded the Vice President's counsel releasing the 
transcript.
    Mr. Shays. Have we received any transcript from you?
    Mr. Raben. No, you haven't received it from us, since----
    Mr. Shays. So you all basically still have not provided us 
the transcript? Is that not correct?
    Mr. Raben. Right. The one you've just now entered in the 
record.
    Mr. Shays. Seems like the Justice Department has two 
different standards. You can't give the interview to Congress, 
because that would harm your investigation. However, you cut a 
deal with the Vice President that allowed him not only to give 
the media his transcript, but also the exhibits that you showed 
the Vice President.
    Mr. Raben, why did the Justice Department fail to take 
steps to prevent the Vice President from distributing his 
transcript, particularly when it was so sensitive that you 
couldn't comply with a congressional subpoena?
    Mr. Raben. You have so many premises in that question I'm 
not exactly sure where to begin. But I'll try to remember 
everything you've said.
    You called it a double standard, I believe. It's not a 
double standard, it's two different requestors and two 
different sets of legal obligations. The witness, once provided 
a transcript as part of a voluntary interview, as I've been 
taught about by the Criminal Division, is free to do what he or 
she wants with his or her own words. And we apparently do not 
have a legal ability to object to the release, whether or not 
we personally object.
    With respect to Congress and it seeking information from 
us, I think the policy, as I manifest it in this job is to 
resist as much as possible the ability of Congress to have 
access to open file material. We do everything that we can to 
try to accommodate what you and we consider to be legitimate 
oversight needs without providing open access material, open 
file material.
    Mr. Shays. Mr. Gershel, in the letter that we received from 
the Attorney General, she said, disclosure of the records of 
such recent interviews is a particular concern, because 
revealing information, especially the questions posed in the 
interviews, could disclose significant aspects of our ongoing 
campaign finance investigation, which include multiple matters. 
No prosecutor would want other witnesses to have the benefit of 
these witness interviews.
    The investigation would be seriously prejudiced by the 
revelation of the direction of the investigations or 
information about the evidence that the prosecutors have 
obtained. She goes on to say, as discussed above, significant 
harm to ongoing investigations would result from the disclosure 
of the records of the recent interviews. She then says, 
moreover, disclosure at this juncture of the aspects of the 
open investigation that is revealed by an investigator's 
question at these interviews would unquestionably risk 
compromise to the pending investigations and possible future 
prosecutions.
    So I'd like to ask you, is the Attorney General speaking 
the truth? Is that true?
    Mr. Gershel. Certainly she's speaking the truth. But as Mr. 
Raben indicated, the circumstances that occurred here are 
different. We could not have prevented the Vice President from 
releasing that transcript. We could not have prevented it by 
law, by rules of ethics, by our duties as a prosecutor, by the 
first amendment. He was free to walk out of that room after 
that interview, sir, and tell the whole world what he had said.
    Mr. Shays. You have told us what you felt would happen by 
the release of that document. Did you share that information 
with the Vice President, that he would compromise the 
investigation? All those things that the Attorney General said, 
did you share that with the Vice President?
    Mr. Gershel. Mr. Shays, it would be inappropriate for me to 
comment on any discussions I might have had with the Vice 
President.
    Mr. Shays. Mr. Conrad, did you share with the Vice 
President that any disclosure of this information would harm 
this investigation?
    Mr. Conrad. I would be in the same situation as Mr. 
Gershel.
    Mr. Shays. Mr. Robinson.
    Mr. Robinson. I didn't speak to the Vice President about 
this matter or Mr. Neal or anyone else. I think when Mr. Conrad 
made these arrangements, he was new enough to Washington he 
didn't expect leaks. But that's unfortunately what happened.
    Mr. Shays. See, this is where I begin to feel that this, 
that your responses border on absurdity. It's one thing to say 
you can't talk about an investigation. It's another thing to 
say that you can't disclose to us whether or not you asked the 
Vice President not to disclose this information.
    And for the life of me, I can't understand how you can 
equate that, not disclosing what you said to the Vice President 
about disclosing sensitive information that would harm 
investigation. And I just want to be certain that all of you 
are still contending that would be inappropriate for you to 
disclose to the committee.
    The question is very simple. Did you make it clear to the 
President that disclosure of these tapes would harm the 
investigation, the Vice President? Mr. Robinson.
    Mr. Robinson. I didn't have any discussions.
    Mr. Shays. You had no discussions with the Vice President 
about this?
    Mr. Robinson. No, I did not.
    Mr. Shays. OK. Mr. Raben.
    Mr. Raben. I didn't have any conversations, either. I would 
not accept the label absurd to say that it's inappropriate, or 
if they say it's inappropriate to talk about their 
conversations with somebody, I wouldn't accept the label 
absurd.
    Mr. Shays. Well, I think it was when it's just about 
whether or not we wanted to protect an investigation. It's one 
thing when you're talking about the investigation. It's another 
thing about wanting to protect it.
    Mr. Raben. Yes, you know, I'd like to say, I'm not a 
prosecutor. I come, I sat where Mr. Wilson and Mr. Schiliro are 
for 7 years, and I've been at the Department for a year. And 
it's amazing to me what these career prosecutors do, the amount 
of time they work, the dedication they bring to their job and 
the kind of criticism they take. It's very, very impressive.
    Mr. Shays. It is impressive, but it doesn't answer the 
question. We take criticism, too. But it's totally irrelevant 
what you said.
    Mr. Raben. I don't think it's totally irrelevant.
    Mr. Shays. The issue----
    Mr. Raben. I don't think it's absurd when they explain----
    Mr. Shays. The issue is the following. How is it 
inappropriate for you to tell us whether or not you were 
protecting an investigation by telling the individual, in this 
case the Vice President, that he had sensitive information that 
he should not disclose? I'm just reading what the Attorney 
General told us. She told us it would be inappropriate for this 
information to be shared. And I want to know if you made it 
clear to the Attorney General, because he happened to disclose 
it.
    And Mr. Conrad, I'm asking the question. Are you still 
going to make the claim that answering that question is 
inappropriate?
    Mr. Conrad. Mr. Shays, I think if--you probably conclude 
that I made a mistake in setting up the interview the way I 
did, and that is deposition style, where I get a copy of the 
transcript and the Vice President gets a copy of the 
transcript.
    Mr. Shays. No, I don't make that assumption yet. What I do 
make an assumption is that I have a right as a Member of 
Congress to know whether you tried to protect sensitive 
information that you told us shouldn't be made public.
    Mr. Conrad. I think once I made that decision to do it that 
way, I did not have a legal objection to assert----
    Mr. Shays. But what about a moral, moral responsibility to 
protect your investigation? So are you saying that the 
President didn't know he would harm the investigation by 
disclosing it?
    Mr. Conrad. I don't know what he'd do. I'm saying to you 
that I think at the point in time that he does release it, 
that's his decision, not mine.
    Mr. Shays. OK, I think in a sense, you did answer it, and 
maybe you could tell me, you basically did not tell him that if 
he disclosed this information it would be harmful?
    Mr. Conrad. No, sir.
    Mr. Shays. OK. Mr. Gershel.
    Mr. Gershel. No, sir, I had no conversations with him.
    Mr. Shays. OK, thank you.
    Mr. Horn, you have the time.
    Mr. Horn. Would you like 2 or 3 minutes to finish up?
    Mr. Shays. Yes, please.
    I would now like to ask you, each of you gentlemen, Mr. 
Robinson, did the disclosure of the tapes, of the transcript by 
the Vice President harm the investigation?
    Mr. Robinson. I can't comment on whether it did or didn't. 
We always prefer that information that we have not be 
disclosed. But as I said, we can't prohibit that and couldn't 
in this instance and didn't.
    Mr. Shays. As discussed above, significant harm to ongoing 
investigations would result from the disclosure of the records 
of the recent interviews. That's what the Attorney General 
said. Was she telling us the truth?
    Mr. Robinson. That's generally true of all such matters.
    Mr. Shays. So this was a boiler plate? This was not, so we 
shouldn't really believe it?
    Mr. Robinson. No, I think it's true.
    Mr. Shays. OK, that's all I wanted to know.
    Mr. Raben, did the Attorney General speak truthfully, that 
the disclosure of this information harms the information?
    Mr. Raben. Yes, Raben, yes.
    Mr. Shays. Mr. Conrad.
    Mr. Conrad. There's two parts to that question. One is a 
policy where if witnesses thought we were releasing their 
statements after they gave us statements, there would be a 
chilling effect in ongoing investigations. So any time there's 
that perception that we're releasing statements of witnesses, 
it has an adverse effect, or the potential for that in 
investigations.
    Mr. Shays. The Attorney General left no ambiguity about the 
release of this document. She was very clear, I read it to you. 
Mr. Gershel, is the Attorney General correct, and was the 
investigation harmed by releasing these transcripts?
    Mr. Gershel. I can't comment if the investigation was 
harmed. But her comments are correct.
    Mr. Horn. Let me just finish up on the hierarchy over 
there. As I read the regulations and all, the Public Integrity 
Section has the responsibility for reviewing special counsel 
matters. Now, Mr. Conrad, did your particular recommendation go 
through the Public Integrity Section? Seems to be that's the 
hierarchy.
    Mr. Conrad. Any recommendation of the nature you're 
suggesting would go from me to the Attorney General through Mr. 
Robinson.
    Mr. Horn. I see. And would not go through Mr. Radek as 
Chief of the Public Integrity Section?
    Mr. Conrad. That's right.
    Mr. Horn. OK. So let me just note that the Attorney 
General, on July 13th, said she was still reviewing the 
recommendation, presumably yours, but that she would like to 
resolve the issue, ``as soon as possible.'' Now, do any of you 
know where that recommendation stands today? How soon is as 
soon as possible? Mr. Conrad.
    Mr. Conrad. I'd like to defer to Mr. Robinson on that.
    Mr. Robinson. I think as soon as possible is her words. I 
think that's what she'd like to do. But I can't give you an 
estimate of when that would occur.
    Mr. Horn. Well, when this all came out with her comments 
there, numerous press reports indicated that Justice officials 
were ``shocked'' or ``surprised'' by Mr. Conrad's 
recommendation that a special counsel be appointed. One 
anonymous Justice Department official went so far as to predict 
that the Attorney General would decline to appoint a special 
counsel.
    Are any of you concerned that statements like that and 
leaks of information are precisely why a special counsel is 
needed? What do you think of that?
    Mr. Robinson. I'm concerned whenever there are leaks of 
confidential, internal, deliberative information. I continue to 
be upset by it, surprised by it. But less surprised with every 
day I've spent here in Washington.
    Mr. Horn. Well, I don't blame you. I'm a country boy, too. 
But the fact is that the games played here with leaks, and 
usually by the administration, are, oh, that's old news, what 
are you talking about? We've got three members of the press 
here, maybe four. But that's old news, you know, why don't they 
just blithely go on doing what they're doing, which is 
sometimes corruption. And the question we're asking starts back 
to George Washington and the St. Clair expedition, Congress has 
the right to the paper and the files when there's a big mess 
going on.
    George Washington set that precedent. Nobody has objected 
to that except this administration.
    Thank you, Mr. Chairman. You can have the remaining couple 
of minutes.
    Mr. Shays. Mrs. Chenoweth-Hage, you have the floor.
    Mrs. Chenoweth-Hage. Thank you, Mr. Chairman.
    Yesterday our staff here on the committee had the chance to 
review declination memos at the Justice Department. Now, these 
memos, as you know, are explanations of why the Justice 
Department has refused to pursue prosecutions in certain 
aspects of the campaign finance investigations.
    Mr. Raben. May I interrupt you for 1 second? I'm sorry, I 
know that's unusual, but it is directly responsive to Mr. 
Horn's point that we don't provide information. I think we've 
provided an enormous amount----
    Mrs. Chenoweth-Hage. I'm sorry, Mr. Raben, but you had a 
chance to answer Mr. Horn, and this is my time now.
    Mr. Raben. I apologize for interrupting.
    Mrs. Chenoweth-Hage. One of the declination memos concerned 
White House coffees. Now, I want to read you a section of that 
memo. That memo says, ``It was determined that while the White 
House coffees were used as donor servicing events, there was no 
evidence to support that the individual coffees had been given 
a specific price tag. It is therefore recommended this portion 
of the investigation be closed.''
    Now, I don't know what evidence the Justice Department 
considered. But these documents and testimony received by the 
committee indicate that there was indeed a price tag on 
attendance at the coffees. Charlie Trie testified before that, 
``I checked with my contact at the DNC and find out about the 
Presidential coffee. I'm not sure whom I spoke with, but I 
think it was probably either David Mercer or Richard Sullivan. 
I find out that for a $50,000 contribution to the DNC, it were 
possible to attend a coffee meeting with the White House, 
meeting in the White House with President Clinton.''
    Now, in fact, Mr. Trie purposely did not attend the coffee 
in June 1995, precisely because he didn't want to pay the 
$50,000 to attend. Now, one attendee at the coffee, a man by 
the name of Carl Jackson, stated that John Huang solicited 
coffee attendees for political contributions. Now, the DNC 
accounting documents for fundraisers lists target fundraising 
amounts for coffees, and whether the coffees actually met these 
goals. And that you will find in your exhibits, exhibit No. 4.
    Also in his book, To Tell The Truth, former White House 
lawyer Lanny Davis stated, ``It would have been better to have 
described these events from the start as fund raisers and not 
to have attempted to deny the obvious.'' Now, Mr. Robinson, 
since you're heading up this team, I'm going to direct this 
question to you.
    The examples I just cited are just a few of many examples 
that we've received here in the committee. In light of these 
examples, how could the Justice Department conclude that there 
was no evidence that the coffees had price tags?
    Mr. Robinson. Well, you're asking me to comment on 
something that happened before I arrived at the Justice 
Department. I wasn't involved in the preparation of that or the 
decisionmaking with regard to that. And so I don't, off the top 
of my head, have an answer to your question. I mean, I would 
think that I would want to read the document carefully and look 
at the other materials. But you're talking about a decision on 
an independent counsel matter that occurred before June 1998 
when I was teaching evidence and being a law school dean.
    Mrs. Chenoweth-Hage. Well, Mr. Robinson, it would appear 
that the information I've given you would be somewhat 
compelling. I would think it would be very compelling to 
Justice. And in light of a mistake like this, is the Justice 
Department going to reopen the investigation of the White House 
coffees?
    Mr. Robinson. It would be entirely inappropriate for me to 
answer that question. I would be commenting on whether or not 
we're going to be investigating something which the code of 
professional responsibility tells prosecutors they're not 
supposed to do. And Congress has told me I'm not supposed to it 
under the McDade Act as well.
    Mrs. Chenoweth-Hage. Mr. Robinson, what I'm going to do is 
I'm going to submit this question to you in writing that I just 
proposed. And we will submit the evidence to you, all the 
exhibits and everything.
    Mr. Robinson. Be happy to receive it.
    Mrs. Chenoweth-Hage. And I believe that it's very 
compelling and I would like your response in writing.
    Mr. Robinson. Be happy to receive the information.
    Mrs. Chenoweth-Hage. I have another question. After Johnny 
Chung began cooperating with Department of Justice and this 
committee, he said that he had been paying an official at the 
U.S. Embassy in Beijing, Charles Parish, to help get visas for 
Chinese to visit the United States. Chung also stated that he 
had given Parish a number of gratuities as part of his efforts 
to get visas for individuals who otherwise would not have been 
able to get them.
    Now, Mr. Chung's allegations began an investigation of Mr. 
Parish, who had been forced out of his job in Beijing after 
similar accusations were made against him by his subordinates. 
Now, the Justice Department declined to prosecute Mr. Parish, 
despite the testimony of a number of individuals that Parish 
had broken the law. Now, in its declination memo, that's 
available to you----
    Mr. Shays. Would the gentlelady suspend? Her time is up, 
but Mr. LaTourette is next, and may be he could just yield to 
you. We can go one quick round before we give the counsel the 
opportunity.
    Mr. LaTourette. I'd be happy to yield to you.
    Mrs. Chenoweth-Hage. I thank the gentleman.
    Now, in its declination memo, which is available in your 
department, as it was to us, finally, the Department stated 
that there was no specific or corroborative evidence developed 
to support the allegation that Parish was illegally selling 
visas. Now, this committee asked Mr. Parish to testify and he 
took the fifth amendment.
    So did Mr. Chung's testimony not constitute specific 
evidence against Mr. Parish? Chung testified that he saw Parish 
sell the visas. Isn't that pretty compelling, Mr. Robinson?
    Mr. Robinson. I couldn't comment on that. I'd be happy to 
receive the information.
    Mrs. Chenoweth-Hage. We will provide that to you, with, and 
again, this question in writing with all the evidence.
    Mr. Robinson. Thank you.
    Mrs. Chenoweth-Hage. Did the Department interview Jay Ding 
before it closed the Parish investigation?
    Mr. Robinson. I don't know the answer to that question one 
way or the other at this point. If you want to submit that, 
we'll take a look at it.
    Mrs. Chenoweth-Hage. Mr. Raben, do you know?
    Mr. Raben. No, ma'am, I don't.
    Mrs. Chenoweth-Hage. Mr. Conrad, do you know?
    Mr. Conrad. That was way before my time. I don't know.
    Mrs. Chenoweth-Hage. I don't want to take up all the 
gentleman's time, so I will yield back. Thank you.
    Mr. LaTourette. I thank you very much.
    Mr. Conrad, I was talking to Mr. Robinson before about 
Ernie Green and others. Actually, I was talking and he was 
telling me he couldn't tell me anything. But maybe I'll have 
better luck with you.
    Do you know why it took the Justice Department 3 years to 
request documents from the White House relative to Ernie Green, 
and a full year after there was a referral made by this 
committee relative to charges of perjury against Mr. Green?
    Mr. Conrad. I don't know, and if I did----
    Mr. LaTourette. You wouldn't tell me. It would be one of 
those, you could tell me, but then you'd have to kill me.
    Let me talk about Mark Middleton for just a second. Mark 
Middleton served in the White House chief of staff's office. He 
has taken the Fifth and refused to cooperate with the 
committee. The Justice Department, it's my understanding, 
requested his calendars in August 1998, which was 2 years after 
the investigation started, just requested additional, 
subpoenaed his calendars and telephone messages in March 2000.
    In the hearings that this committee has conducted, Mark 
Middleton was clearly the key contact person at the White House 
for both Mr. Huang and also Charlie Trie. Mr. Conrad, do you 
know why it took 2 years to get around to asking the White 
House for Mark Middleton's records?
    Mr. Conrad. It would be inappropriate for me to comment on 
that as well.
    Mr. LaTourette. Let me ask you this, and I think I already 
know the answer, but you know what? I'm going to ask it anyway. 
Are Mark Middleton and Ernie Green under active investigation 
by the Department of Justice?
    Mr. Conrad. I couldn't comment on that.
    Mr. LaTourette. Well, the reason I ask you that question, 
we were specifically asked by the Department of Justice to 
avoid talking about Ernie Green during the Charlie Trie 
hearing, if I remember correctly. Because we were advised that 
there was an ongoing criminal investigation that the Justice 
Department was very excited about.
    But I have to tell you that the level of excitement is 
puzzling to me, and I assume to my colleagues, when we find out 
that what you're so excited about you're not even requesting 
records about from the White House. And again, I don't like 
this backseat driving business. It makes me very uncomfortable, 
because I'm sure as career prosecutors, you all do an excellent 
job.
    But I hope you take a look at it from our side of the 
fence. We're being told two things. We're being told we don't 
need an independent counsel, everything's under control. We can 
take care of it. But then when we get records from the White 
House as to how it's being taken care of, we find out on a 
direct referral by the committee, where we believe that perjury 
was committed by a fellow named Ernie Green, we find out from 
records that we get from the White House that you all haven't 
even contacted the White House for a year and a half for those 
records.
    And so it leaves the impression in our minds, and I 
understand we've got partisan folks on both sides here, but it 
leaves the impression in our minds that you're not quite as 
excited about it as we're being told. Mr. Robinson, do you want 
to say something?
    Mr. Robinson. I would like to make one comment that I hope 
will continue to be the case in our interaction on parallel 
matters with the Congress. To the extent that we have 
conversations with counsel for committees about the appropriate 
scope of inquiry into witnesses, we don't make those, we don't 
have those conversations with the expectation that they will be 
publicly disseminated. And the code of professional 
responsibility prohibits us from doing that.
    And so I would assume the Justice Department ought to be 
able to talk to Congress about the scope of parallel matters 
without our operating on the assumption that everything we tell 
in all of our discussions are going to be published to the 
world. Because if that were the case, we would be inhibited in 
what we could confer with Congress on. And I'm sure that's not 
the intention.
    Mr. LaTourette. Yes, and I appreciate that chastisement, 
but I will tell you that the committee also has an oversight 
responsibility. And what you're asking us to do is say, trust 
us. But then when we get documents from the White House, we 
find out that stuff we gave you a year and a half ago, you 
haven't acted on, regardless. We don't have to talk about 
specific people.
    But how can we conduct our oversight responsibility, other 
than just to say, you can come down to Capitol Hill any time 
you want, say, we're working on it, and you bet we're working 
on it. But then when we get the records from the White House, 
we find out that subpoenas for documents that we think need to 
be looked at in order to conduct an effective investigation 
haven't gone out for 3 years?
    Mr. Shays. It's my time and I'm happy to yield on my time, 
so he has 5 minutes. What we're going to do, just so you 
gentlemen can anticipate, because it's been a long afternoon, 
well, you know what, we could break for 5 minutes. Usually we 
have a vote and we give people opportunities here. Here's what 
I think we'll do. We'll just go through, Congressmen, we're 
just going to go one more quick round and then we're going to 
have counsel. Maybe before the counsels begin, we can give you 
a little break. Is that OK?
    Mr. Robinson. That would be great, thank you.
    Mr. Shays. OK. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Shays, and I'll just take a 
couple minutes of your time, if I can.
    Since I already know the answer to my next series of 
questions is going to be that you can't tell me, I just want to 
tell you one other thing that's bothering me is, as someone 
that's charged with having some oversight with all of my 
colleagues on this committee, and that is again, in the records 
that we received back from the White House, we discovered that 
the only mention of people who are well known to the members of 
this committee, Kent La, Ted Sioeng, Mr. Glicken and Wong Jun, 
who's an arms dealer who attended a White House coffee, in all 
of the subpoenas and document requests that we got back from 
the White House, the only mention that the Justice Department 
was asking the White House what they knew about these folks at 
all, what records they had and what can you tell us about it 
was one subpoena sent to Ann Lewis. And did you know who Ann 
Lewis was or is, if she still is, or what she used to do?
    Mr. Robinson. I know she was at the White House, that's 
about all I know.
    Mr. LaTourette. She's the communications director at the 
White House, and I believe was the spokesperson for the 
Presidential campaign. So the only request that has been made 
by the Justice Department to the White House for information 
about Wong Jun, who is an arms dealer who attended the White 
House coffee. Howard Glicken, you know who Mr. Glicken is, he 
has two cars, license plates, Gore1 and Gore2, convicted of 
campaign violations, I believe, by the Justice Department. Ted 
Sioeng has been identified in testimony before this committee 
as an agent of the Communist Chinese Government, and Kent La is 
an associate of his.
    The only request that anybody at the Justice Department 
made, according to documents held by the Clinton White House, 
was one request to Ann Lewis, the flak, the person in charge of 
spinning the White House's story, press person. And that's the 
only one we could find.
    Now, again, I understand that what you just said, and I 
take it seriously, and I certainly didn't mean to overstep. But 
if you're us, don't you think that that's strange? If that's 
true, don't you think that that's weird?
    Mr. Robinson. I--I leave it to your characterization. I 
wouldn't characterize it, and it wouldn't be appropriate for me 
to comment on grand jury subpoenas, that's for sure. And it's 
not the only way we can get information generally. But I think 
we can't go further than that.
    And hopefully maybe the dialog can be better between our 
staffs on parallel matters. I think that's appropriate.
    Mr. LaTourette. OK, well, thank you. And thank you for 
giving me some added time, Mr. Shays.
    Mr. Shays. Thank you. Is the gentleman concluded?
    Mr. LaTourette. I am, thank you.
    Mr. Shays. I'll use the remaining 2 minutes very quickly, 
and then the chairman will gain the floor here.
    Mr. Gershel, I just want to quickly talk about priority and 
why you, the Attorney General, then the Criminal Justice 
Division, Mr. Robinson, your deputy, Mr. Gershel and Mr. 
Conrad, you're in charge of the Campaign Financing Task Force. 
Mr. Gershel, evidently you decided to undertake the case 
against Mr. Bakaly, who evidently was the former independent 
counsel spokesperson.
    And I'm just curious why you decided to prosecute this 
case. Why did you want to participate in this case? You've been 
an active participant in this case.
    Mr. Gershel. Congressman, that matter is certainly a 
pending matter. I'm not going to comment as to why the case was 
brought.
    Mr. Shays. I didn't ask that. I asked why you. Why are you 
involved in that case?
    Mr. Robinson. I can answer that question perhaps even 
better than Mr. Gershel. But I don't want to----
    Mr. Shays. Well, let's give him a try.
    Mr. Gershel. With all due respect, I think Mr. Robinson can 
give a better answer.
    Mr. Shays. I'll take a less better answer, and then I'll 
ask him.
    Mr. Gershel. I was requested to participate in the case.
    Mr. Shays. OK. Why did you request him, Mr. Robinson?
    Mr. Robinson. This matter was being handled by Mr. 
Gershel's predecessor, who became my chief of staff. And so 
that was, when Mr. Gershel took----
    Mr. Shays. Let me ask you, why would you ask your deputy to 
take a case about a spokesman for the independent counsel on 
whether or not he told the truth on a statement? Why did you 
feel it was so important that it be such a high ranking 
official?
    Mr. Robinson. It was a matter that was handled by Mr. 
Gershel's predecessor, appropriately so. And----
    Mr. Shays. Appropriately so. Is it the Deputy Criminal 
Division head that needs to handle this case?
    Mr. Robinson. He was certainly more than qualified, as was 
his predecessor, to try the case.
    Mr. Shays. I'm not saying he's more than qualified. Is he 
the only person qualified to handle this case?
    Mr. Robinson. No, he's not the only person qualified. But 
he certainly was qualified, and----
    Mr. Shays. Doesn't it send a very keen message about 
priority and appearance? I mean, he's in charge of 
investigating the President and the Vice President, but he's 
going after the independent counsel. Isn't there a real clear 
message in your priorities when you do that?
    Mr. Robinson. Well, I--Mr. Gershel's responsible for 
supervising a wide array of things. I happened to decide----
    Mr. Shays. So he's a very busy guy?
    Mr. Robinson. Very busy. I'm busy, too.
    Mr. Shays. But you decided that he needed to be the one to 
handle this case. I just find it curious.
    Mr. Robinson. I decided to argue a case before the Supreme 
Court as well, and I'm a busy guy. But I think it's 
appropriate.
    Mr. Shays. It just so happens, though, it's kind of like a 
law firm, if a law firm was handling it, it's interesting the 
different priorities they set, and whether it's connected with 
the same kind of case. It's really related.
    Mr. Burton [presiding]. Would the gentleman yield real 
briefly?
    Mr. Shays. Happy to yield.
    Mr. Burton. I'm just curious about that, too. Because as I 
understand it, the campaign finance investigation is supposed 
to be the largest investigation that you've ever undertaken. 
And if that's the case, why would the fellow who's pretty much 
in charge of it be assigned a case of that significance when 
you have a huge undertaking with the campaign finance 
investigation? Seems to me that there would have been a lot of 
other people you could have picked. So why would you pick him?
    Mr. Robinson. Mr. Conrad's in charge of the campaign 
finance investigation. And Mr. Gershel's responsibility is 
supervisory over lots of things, and isn't day to day handling 
the campaign finance investigation.
    Mr. Burton. So he's a supervisor of a lot of things?
    Mr. Robinson. Fraud section, child----
    Mr. Burton. But you said supervisory.
    Mr. Robinson. Yes.
    Mr. Burton. And yet you picked him to go ahead and 
prosecute this one particular case?
    Mr. Robinson. He took this matter over from his 
predecessor. All of us who are trial lawyers try cases.
    Mr. Burton. Why would his predecessor be doing that?
    Mr. Robinson. Pardon?
    Mr. Burton. Why was his predecessor assigned to that job?
    Mr. Robinson. Because it was considered to be an 
appropriate thing under the circumstances. When this matter 
arose, and as I said, the details of the matter, I think, which 
is still under consideration by the court, we shouldn't be 
discussing. I'm happy to discuss generally, these are qualified 
people to try cases, argue appeals. This wasn't a long matter, 
a little longer than people thought perhaps.
    Mr. Burton. I thank the gentleman for yielding.
    Mr. Shays. Thank you. My understanding is that we're pretty 
much set. Mr. Horn, do you have anything left, or Mr. 
LaTourette?
    Then, Mr. Chairman, what we agreed, they've been on the 
table for a while, and we thought we'd have a 5-minute recess 
and then we would allow counsel to ask their questions. Is that 
OK with you?
    Mr. Burton. It would be fine with me.
    Mr. Shays. OK, so we'll just have a 5-minute recess, and 
thank you for your patience, gentlemen.
    [Recess.]
    Mr. Wilson. Good afternoon. If all goes well, we will not 
take the 30 minutes and we will all get out of here as quickly 
as possible.
    Mr. Conrad, I wanted to ask you just a threshold question 
that goes to our concerns. In your opinion, has the task force 
process, since the time that you have been in Washington, 
worked in the best interests of justice?
    Mr. Conrad. I have enjoyed my time in Washington. I have 
worked with very conscientious, hard-working people pursing 
what I think are very serious matters and pursing them in a way 
that I do think works.
    Mr. Wilson. We are not focused so much on whether you 
enjoyed your time, but we are really interested in whether in 
your perception you believe that the American people and folks 
who are following the campaign finance investigation will 
emerge with a sense of confidence that questions have been 
asked in a timely fashion. And I just want to set the stage. We 
have asked a lot of questions of the panel about why it took 
nearly 4 years for the Vice President to be asked about the Hsi 
Lai Temple, and we have asked questions about why it took 
nearly 4 years for the President to be asked any questions 
about foreign money or James Riady. And so I would like you to 
step away from the specifics of the case, and I know you are 
not going to answer that question if I ask it again, but one of 
the principal concerns here, do you think this process, as you 
have seen it, has worked in the best interest of justice?
    Mr. Conrad. My own personal opinion is that a task force 
concept like this is a good one and it is set up to work, and I 
think it----
    Mr. Wilson. Well, again, I do not want to talk about the 
concept so much, because we all understand the concept, it is a 
very good concept and it is applied in many places around the 
country and in many different instances, and each type of 
investigation is, in many respects, governed by the facts of 
that type of investigation. But in this investigation, which 
goes to investigation of the President, the Vice President, a 
political party, by the same political party that happens to 
control the Justice Department with all that entails, is it in 
your opinion, and I just want this for the record so you can 
look at it years from now and we can look at it years from now 
and you will be able to see what you said, we just want to know 
whether in your opinion this process has worked to promote 
people's confidence in the justice system.
    Mr. Conrad. I think in the 7-months that I have been there 
that it has worked well, yes.
    Mr. Wilson. Fair enough.
    I will truncate this as much as possible, but to 
recapitulate about the December 15, 1995, White House coffee 
tape that has been shown. We have played it, the purported 
words have been put on a poster. One of the areas of principal 
concern, it was discussed earlier, was yesterday's CNN news 
article, and it was read earlier but it is worth reading again, 
from CNN, under the heading of Justice Says White House Coffee 
Tape Unclear, ``But a Justice Department source said it was 
unclear what was on the tape because of poor audio.''
    Now I wanted to just take a moment and read Mr. Robinson's 
opening statement, which you very thoughtfully provided to us a 
few minutes before this hearing. On the second page, ``I am 
also bound by the similar provisions of the United States 
Attorney's Manual which provides, among other things, that 
`personnel of the Department of Justice shall not respond to 
questions about the existence of an ongoing investigation or 
comment on its nature or progress.' '' Now this is a 
characterization admittedly, but that appears to be precisely 
what happened yesterday when somebody spoke to the media and 
characterized the tape as being unclear because of poor audio.
    Now, we have a CNN news report, that does not mean it 
happened, but if that happened, would that promote the Campaign 
Financing Task Force's investigation, Mr. Robinson?
    Mr. Robinson. No.
    Mr. Wilson. Mr. Conrad, would that promote your 
investigation if somebody said that?
    Mr. Conrad. No. I think that would be inappropriate.
    Mr. Wilson. You believe it would be inappropriate?
    Mr. Conrad. Yes, sir.
    Mr. Wilson. Now why would that be inappropriate?
    Mr. Conrad. It is a comment on pending matters. The same 
reason why we are not saying as much as you would like us to 
say today.
    Mr. Wilson. OK. And that we respect and we understand it. 
We have worked with the Department of Justice for the last 
couple of years and generally kept issues off the table when 
you have asked us to.
    Mr. Gershel, I will ask you the same question. Would it 
have been, in your opinion, appropriate for somebody at the 
Department of Justice to make the statement that is put in the 
CNN news report?
    Mr. Gershel. No.
    Mr. Wilson. Is that a problem from all of your perspective 
about this particular investigation? Is this particular comment 
something that--first of all, let's ask whether you know 
whether the Department of Justice is trying to followup on this 
particular matter, this particular characterization.
    Mr. Robinson.
    Mr. Robinson. I think we violate the language you are 
quoting to be talking about an ongoing or whether there is an 
investigation or not. But I can say generally, and I have been 
troubled about this since I was a U.S. attorney in Detroit, 
leaks are not new to Government and people leak for a lot of 
different reasons, sometimes to influence decisionmakers, 
sometimes to hurt people. I have always been of the firm belief 
that this interferes with us getting our job done. I am sure 
Congress finds the same thing when leaks happen that interfere 
with your work.
    And so I think it is inappropriate, I think it hurts our 
investigations, it hurts our credibility, and it often harms 
people who do not deserve to be harmed by having their 
reputations tarred and they never get an opportunity to 
rehabilitate themselves because they never get charged with 
anything. So I am a firm believer in these rules and I 
rigorously follow them. And if we were to determine that people 
were not following them, there would be consequences. It would 
depend on what it is, but----
    Mr. Wilson. No, and I appreciate that. Well, just because 
we are working with a record here and want a record and 
juxtapose what did happen with what people are testifying here, 
let me ask you, Mr. Gershel, were you the source for this 
comment?
    Mr. Gershel. I was not.
    Mr. Wilson. Mr. Conrad, were you the source for this 
comment?
    Mr. Conrad. No.
    Mr. Wilson. Mr. Raben, were you the source for this 
comment?
    Mr. Raben. No.
    Mr. Wilson. Mr. Robinson, were you the source for this 
comment?
    Mr. Robinson. Absolutely not. If there was a comment made, 
I made no comment.
    Mr. Wilson. Has there been any speculation, and I know it 
is only something that happened yesterday, but has there been 
any speculation as to who the source of the comment was?
    Mr. Robinson. If there was, it would not be appropriate to 
comment on the speculation.
    Mr. Wilson. Well, is there an ongoing investigation?
    Mr. Robinson. I could not answer that question.
    Mr. Wilson. Because you do not know, or because you cannot 
answer because there is an ongoing investigation?
    Mr. Robinson. I think it would not be appropriate to answer 
that question.
    Mr. Wilson. Let me just ask you whether you understand, 
from the perspective of this committee, that there is the 
perception of a real problem when there is a piece of possible 
evidence out there that is being characterized by somebody in 
the Department of Justice in a way that is, frankly, very 
political. One can see that through this comment very easily. 
Is that a source of concern in terms of the public's confidence 
in the investigation? Can you see that concern?
    Mr. Robinson. Any leaks are a source of concern. I was 
troubled about the leaks that occurred with regard to whether 
Mr. Conrad made any recommendations. That should not happen 
either. We should be able to do our deliberative processes 
without having this information be leaked. I think as a general 
proposition that is not the way to proceed. But it does happen, 
seems to happen here more than I was used to back in Michigan. 
But, you know.
    Mr. Wilson. But this, as you are well aware, this is not 
the first time there has been a leak that has been beneficial 
to a suspect or a target of the campaign financing 
investigation. A couple of years ago there was a very 
beneficial leak from the Department of Justice in the John 
Huang case that was beneficial to John Huang. A question that 
was asked of Mr. Radek in a hearing not so long ago was is that 
something he factored in when he was considering whether 
somebody independent, somebody from outside, somebody from 
outside the political chain of command should handle this case. 
And Mr. Radek told us that no, he had not considered that.
    And I guess I would like to ask that question now, given 
that some of the people here are involved in the decisionmaking 
process, if there is a recommendation on the table for the 
appointment of a special counsel to investigate either all of 
or matters in the campaign financing investigation, Mr. 
Robinson, would you take into account the fact that there 
appears to be somebody here, at a bare minimum, who is 
characterizing information in a rather adverse way to the 
interests of justice?
    Mr. Robinson. I think leaks are a problem no matter where 
they come from, from an independent counsel's office, from a 
Government, either the executive or the legislative branch. I 
think it is a problem and I think there needs to be rigorous 
efforts to avoid these things. And that is why we have 
regulations----
    Mr. Wilson. But what I was asking was a very specific 
question about this process. Obviously, given the number of 
hearings and the interest of Members of Congress, there is a 
very clear concern that there is a possible conflict of 
interest that may not advance the cause of justice in the 
campaign financing investigation. And if there are leaks coming 
out of the Department of Justice in this specific 
investigation, what I am asking you is the same thing I asked 
Mr. Radek, is that a consideration in whether you think that 
somebody independent should----
    Mr. Robinson. You would have to assume where the leaks were 
coming from. For example, if there were an independent counsel, 
ordinarily they are staffed by Justice Department people as 
well. Ordinarily, investigative agencies support independent 
counsels. We detail people from the Justice Department to 
independent counsels' offices. Basically, the investigators 
traditionally within the Justice Department include the 
investigative agencies. The FBI is part of the Justice 
Department and there are other agencies within the Justice 
Department and other law enforcement agencies in Treasury and 
other places. So it is an issue, but I would not suggest that 
the situation can be localized in a way that gives you much 
help, it seems to me, on what I take it to be the premise of 
your question, which is that it is happening at a particular 
place in a major bureaucracy.
    Mr. Wilson. Well, my question begins with the premise that 
every case is different, admittedly, and no two cases can be 
treated in precisely the same way. Consequently, a task force 
model might be good in one case, a special counsel model might 
be good in another case, handling the case in the U.S. 
Attorney's Office might be good in another case. But what we 
are looking at here is a very specific set of, a large universe 
of facts, but it is an investigation that is being supervised 
by the Attorney General, you are the second person in the chain 
of command, Mr. Gershel is the third person in the chain of 
command, Mr. Conrad----
    Mr. Robinson. Do not leave out the Deputy. I am actually 
the third person in the chain of command.
    Mr. Wilson. Well, just working from recent studies that 
have been provided on that. But you are all in this direct 
chain of command and there are other ways of handling the case, 
and I asked you the question. And it sounds like, to me, it is 
fair to characterize that leaks in this particular case are not 
a particular concern of yours beyond the normal concern that 
you would feel about any case. Is that a fair characterization?
    Mr. Robinson. I am concerned generally about leaks, and I 
see it not just in this area but in other areas that trouble me 
whenever I walk to my front door of my apartment to pick up my 
papers in the morning.
    Mr. Wilson. You see, from our perspective, here we have a 
Department of Justice that is putting out a public face on a 
piece of evidence that is almost a self-fulfilling type of 
prophecy that we have got here. We have got somebody, not one 
of you, according to your testimony, but somebody putting out 
an adverse reaction to something that they probably have never 
seen. We have asked the question, and I do not think you are 
going to answer, but I will ask it again. Has the Department of 
Justice seen the original Beta tape of the December 15, 1995, 
coffee event?
    Mr. Robinson. It would not be appropriate I think for us to 
answer. I would only say that----
    Mr. Wilson. We can find this out, obviously. We can check 
and we can develop the answer.
    Mr. Robinson. Sure.
    Mr. Wilson. So is it not possible for you to tell us 
whether you have seen the original tape?
    Mr. Robinson. I think it would not be appropriate for us to 
comment. We would be commenting on a pending matter and 
commenting about evidence in a pending matter. We have seen it 
here, I can tell you that.
    Mr. Wilson. Well that is not the original tape. So that is 
a rather flip answer, but that is not the original tape, it is 
a copy. One would think if you are doing an investigation and 
you want to see or understand or hear what is going on, you 
would want the original. I can ask the question, is there any 
interest in having the original tape?
    Mr. Robinson. I think it would not be appropriate for us to 
comment. We listen to what you have to say and we take what we 
hear from you seriously. I think that is about as much as we 
can say. You have told us your view of this and we----
    Mr. Wilson. I understand that. But if it is not appropriate 
to comment, how are you ever going to request the original tape 
to do the job that you need to do? Are you telling us now you 
are not interested in it?
    Mr. Robinson. What I am telling you is I am not going to 
make a statement for public dissemination here at this hearing 
about a pending matter. We are happy to have other discussions, 
as we do all the time. I made the point earlier that I think we 
are all in the same Government here and we ought to cooperate 
on something----
    Mr. Wilson. And we have done that and it has been a good 
relationship thus far. When we interviewed Johnny Chung certain 
issues were taken off the table, you asked us not to divulge a 
certain matter about various investigations. But unless you set 
up a different type of arrangement with us than you did with 
the Vice President, unless you set up some type of non-
disclosure agreement, if you come to us and say we will ask for 
the tape but you cannot tell anybody that we asked for the 
tape, then it is just a matter of sort of use of common sense 
that if you come and you ask for the original evidence that it 
will necessarily follow that people will know whether you asked 
for the original evidence or not.
    Mr. Robinson. Right. I think it does make a difference the 
extent to which we have an understanding about whether we can 
have a conversation with the committee here that we have to 
worry about McDade over because we have got this rule that says 
you cannot make statements knowing that it is going to be 
publicly disseminated. Now we can receive anything, and we are 
happy to receive anything that the committee or others think 
appropriate for the Department to receive and consider.
    Mr. Wilson. But thus far, the only public iteration of 
interest that we can use in any cognitive way is a pejorative 
representation from the Department of Justice. It is like we do 
not care, it is a poor quality tape. And of course that begs 
the question, if it is a poor quality tape, maybe that is 
because it is not the original. So I think we understand your 
position there and perhaps that is something for a dialog at a 
later time.
    Mr. Robinson. Fine. Happy to do that.
    Mr. Wilson. We obviously welcome that and look forward to 
that.
    Let me just turn to another issue that has not really been 
addressed. In March of this year, nearly 4 months ago, the 
committee asked the Attorney General to appoint a special 
counsel to look into allegations that the White House had 
obstructed justice in terms of not turning over e-mail 
information and also a possible intimidation of witness issue. 
I know there has been some discussion, unfortunately, I had to 
leave the room briefly for that. I think the question was asked 
has there been a conclusion. Have you come to a conclusion as 
to whether a special counsel will be appointed to investigate 
the e-mail matter?
    Mr. Robinson. Earlier, there was an indication that the 
Attorney General has made no such announcement at this point. 
And I think that if there were to be such a statement, it would 
be made by the Attorney General. And so we are not quite in a 
position to answer for her on that topic.
    Mr. Wilson. We have come to a point now where it has been 
nearly a third of a year. It might be helpful to come to some 
closure on that issue.
    Mr. Robinson. We will take that back.
    Mr. Wilson. But it is a matter of some concern to us 
because one of the things we have learned as we have conducted 
our investigation of the e-mail matter is that there is a large 
universe of individuals who have not been spoken to by the 
Department of Justice. And as we pointed out in the March 
letter, there was some concern that the Department of Justice 
is on both sides of the same case. Even today, apparently, the 
Department of Justice is representing the White House in the e-
mail matter and at the same time the Campaign Financing Task 
Force is theoretically conducting an investigation of possible 
issues of impropriety in the e-mail matter. And we sent a 
letter a few weeks ago indicating that the Department of 
Justice had not talked to a number of significant witnesses. 
And I will not go through the list today, but even yesterday I 
called counsel for three people who have pieces of information 
that are very important to the puzzle of understanding what is 
going on and the Department of Justice has not contacted them 
even to set up an interview.
    So, Mr. Conrad, this is a characterization, it may be 
unfair, but it is beginning to look like your e-mail 
investigation is a bit like the campaign financing 
investigation. A long period of time is going by without some 
basic fact-finding occurring. Like the near 4 year delay asking 
the Vice President about the Hsi Lai Temple, we have gone 
nearly a half a year on some e-mail matters.
    Let me ask you one question that I think you can answer. 
Mr. Conrad, how are you kept up to date on the e-mail 
reconstruction project? Who talks to you?
    Mr. Conrad. I do not want to get into the deliberative 
process within the task force investigation.
    Mr. Wilson. No, no. I do not mean to even ask you to go 
there, and please do not think that I am. What I am asking you 
is not what is going on inside the task force, it is just as 
theoretically the White House should be keeping us up to date 
on what is going on with the reconstruction project. We learned 
in court just in the last week that the White House apparently 
has just started copying tapes and will not be finished copying 
tapes until next year.
    So what I am not asking you for is deliberative process, 
what I am asking you for is who keeps you up to speed with what 
is going on in the reconstruction process at the White House.
    Mr. Conrad. In the ordinary course of supervising a myriad 
of task force investigations, I make it a point as a supervisor 
to meet with prosecutors and agents assigned to different 
responsibilities. And White House e-mail would be no different 
than any other case.
    Mr. Wilson. Again, I guess I am not making my question 
clear. Is it the White House that keeps you up to date with 
what is going on, or is it the White House's lawyers, other 
Department of Justice lawyers, who tell you what is going on, 
if anybody. Maybe nobody does.
    Mr. Conrad. I have under my supervision criminal 
prosecutors and agents that are conducting the criminal 
investigation and I supervise them. That is who would keep me 
up to date with any developments in any of the cases.
    Mr. Wilson. But the people you supervise are not the people 
who have any idea what is going on in the reconstruction 
process unless they are told. What I am asking you for is who 
does the telling. Does the White House--first of all, to 
characterize, the White House has not kept us informed, but 
does the White House keep your subordinates informed, or do 
they have direct contacts with other Department of Justice 
attorneys who happen to be representing the White House in this 
matter?
    Mr. Conrad. I really would not be in a position to talk 
about how I conduct a criminal investigation. That is a pending 
matter under my supervision and it is being supervised in a way 
I think is appropriate. But how we do that, what decisions we 
make, who informs who is something that is part of the 
deliberative process which I am not in a position to talk 
about.
    Mr. Wilson. So you are not able to discuss at all what is 
going on outside of the task force in terms of advising you of 
any of the reconstruction issues?
    Mr. Conrad. That is correct.
    Mr. Wilson. Just a few more things. I want to just for the 
record clarify a couple of matters. One, I understand the 
answer to the question that was posed earlier about why it took 
nearly 4 years to ask the Vice President about the Hsi Lai 
Temple matter, but I will ask this question from a different 
angle. Mr. Robinson, have you ever made any inquiries as to why 
it took nearly 4 years to ask the Vice President about the Hsi 
Lai Temple matter?
    Mr. Robinson. I guess not directly that way, except that I 
expect the people who are in charge of these task forces, 
including some very fine prosecutors, Chuck La Bella included, 
Dave Vicinonzo, Bob Conrad, that they are going to do their job 
in a deliberate, careful way and that they are going to proceed 
appropriately. And I think I have empowered them to do that and 
not interfered with it and I expect that they are doing it.
    These things move along. Obviously, we had a trial that 
took a fair amount of time, we have had a number of pleas, we 
have debriefed witnesses. This is a process that those of us 
who are involved in major investigations appreciate that 
sometimes things take longer than one would like and that there 
are a variety of ways to proceed. I have no reason to believe 
that these prosecutors and the people running the task forces 
are not proceeding in what they view to be the best interest of 
the investigation, which I think is the case.
    Mr. Wilson. We understand that and we appreciate that there 
was a trial involved. But there appears to be somewhat of a 
novel representation here that one needs to wait until after, 
if you are referring to the Hsia trial, wait until after the 
Hsia trial to ask a witness about information that might be 
pertinent to the trial itself.
    Mr. Robinson. I think it is legitimate for you all to make 
comments about that. But it would not be appropriate for us to 
comment about the investigation, the strategy that relates to 
it. But sessions like this are helpful for us to understand how 
other people feel about it and for us to take that into 
consideration. I think that is appropriate.
    Mr. Wilson. Let me perhaps turn to Mr. Conrad and ask the 
same question. Admittedly, much of this happened long before 
you came here. But in terms of your supervisory role, have you 
made any effort to reconstruct whether there was a legitimate--
I guess what I am asking is was there a legitimate 
prosecutorial or strategy rationale for waiting nearly 4 years 
to ask the Vice President about the Hsi Lai Temple matter?
    Mr. Conrad. The only thing I can say is my own personal 
experience. I have not reconstructed other people's 
investigative strategies. I came on in January, I interviewed 
the Vice President in April. To me, that was working pretty 
expeditiously. That is the universe of my knowledge.
    Mr. Wilson. Right. We understand that. But was it a matter 
of any concern to you personally that the Vice President was 
not asked the very questions you asked him prior to the Hsia 
trial? Were you curious about that matter?
    Mr. Conrad. My focus was on setting up an interview and 
asking the questions that needed to be asked, and that is what 
I did.
    Mr. Wilson. I understand if you cannot answer my question, 
you can say that. But I asked if you were curious as to why it 
took that amount of time, and I will ask whether you are 
curious that the questions were asked after the Hsia trial and 
not before the Hsia trial. We have read the transcript and you 
did a fine job of asking questions. But the perspective we have 
is why were those questions asked after the trial as opposed to 
before the trial. And I am asking whether you were curious 
about that.
    Mr. Conrad. I think the appropriate people to ask those 
questions, if you have specific people in mind who you think 
should have asked the questions, they would be the people to 
ask why they did not. My focus was on the needs of the 
investigation at the time I took over and that is where my 
energies went, that is where my thought processes went.
    Mr. Wilson. Mr. Robinson, I just wanted to tidy up one 
matter relating to the Charles Parish issue. I think it was Mr. 
LaTourette spoke extensively about some representations that 
were made about Mr. Parish's conduct and your response was we 
would have to receive that evidence. Is that a correct 
representation of your words?
    Mr. Robinson. No. I think I said we would be happy to 
receive anything that exists and to look at the matter. Off the 
top of my head, I was not in a position, and I would be glad to 
evaluate whether we can make any kind of a response. I did not 
review that matter. I did not understand that was going to be a 
subject of our discussion. But if somebody wants to direct 
something for us to take a look at and see what, if anything, 
we can appropriately say about it, we would be glad to 
undertake to do that.
    Mr. Wilson. I think the response took some people by 
surprise because the evidence was all put before the public at 
a public hearing and it seemed that you were indicating that 
you would have to receive that into evidence to take it into 
account. It is something that has been received and it was read 
sort of in juxtaposition to a declination memo indicating that 
there was in evidence. So the declination memo----
    Mr. Robinson. I was suggesting I would have to look at it. 
Off the top of my head, I was not able to answer. I can say as 
a general proposition that a working arrangement has been that 
on all declinations with the task force there has been the 
joint concurrence of the Attorney General of the United States 
and the Director of the FBI, as a general proposition. On the 
details of this particular matter, I would have to look at the 
matter, and I did not before I came here. I do have 800 people 
and a $100 million budget to operate and there are lots of 
cases. So that particular matter--I would be glad to try to 
look at it and anything we can say appropriately without 
violating these rules, we would be happy to try to do it.
    Mr. Wilson. And we understand that, obviously, it is an 
extraordinary responsibility and it is one that people owe you 
a great debt of gratitude for undertaking. But it is 
interesting, you talk about the breadth of your job, and I was 
actually going to ask Mr. Gershel a question that goes to the 
breadth of his job. These are complicated, difficult, time 
consuming, and sometimes burdensome jobs, and when you take on 
new responsibilities that (a) is evidence of your priorities, 
and (b) it takes away from your ability to take on other tasks. 
And I was going to ask Mr. Gershel how many trials he has been 
involved in as a participating trial member since he became a 
Deputy Assistant Attorney General.
    Mr. Gershel. That was my first.
    Mr. Wilson. The Bakaly trial was your first trial since----
    Mr. Gershel. In the last 6 months since I have been here.
    Mr. Wilson. Right, since becoming a Deputy Assistant 
Attorney General.
    Mr. Gershel. I should indicate, though, that even as the 
criminal chief and first assistant, where I also had broad 
management responsibilities, it was always important for me to 
stay in the courtroom and try cases. I felt it made me more 
valuable as a manager and more helpful to the people that I 
supervise.
    Mr. Wilson. Do you have any other cases that you will be 
handling in the immediate future?
    Mr. Gershel. I am not going to comment on that.
    Mr. Robinson. I would like to say some of us who are trial 
lawyers--I sought out an opportunity to argue a case in the 
Supreme Court, and maybe somebody would criticize me for doing 
that but it was the highlight of my professional career. I 
worked hard nights and weekends to do it. I would do it again, 
although we are working pretty hard at it. But those of us who 
are trial lawyers and get into supervisory positions, the 
opportunity I think, as Alan said, to stay in the courtroom and 
to completely appreciate this it helps give a credibility. I 
taught as a dean, so, you know----
    Mr. Wilson. Gentlemen, thank you----
    Mr. Conrad. Mr. Wilson, can I go back to one of your 
questions because I want to complete an answer.
    Mr. Wilson. Absolutely.
    Mr. Conrad. I want to make sure I am right on it. You asked 
me about whether I was curious about the Vice President not 
being interviewed. I came on in January. The Maria Hsia case 
was set for trial in January. I had to come up to speed on a 
whole host of pending investigations. And I sort of came on 
with the notion that that trial had no input from me and was 
going to trial the same month I was starting up. So as I 
started to look at different cases, my curiosity with respect 
to the Vice President and the Hsi Lai Temple was what he would 
have to say about it, and that was structured into the 
examination.
    Mr. Wilson. I did not mean to characterize that you were 
amiss in any way for not following up. I just wanted to know 
whether you had thought about why that event had not taken 
place.
    Mr. Conrad. And I wanted to put it in context what I 
thought and why I thought that.
    Mr. Shays. Mr. Conrad, the record will be clear that you 
began work this year in this position as head of the task 
force. Correct?
    Mr. Conrad. January 2000, yes, sir. Well, the day after 
Christmas, the first full week.
    Mr. Shays. Fair enough.
    I thank the gentleman for his questions, his 30 minutes.
    We now turn to the minority for their 30 minutes.
    Mr. Schiliro. Thank you, Mr. Chairman. And in fairness to 
the witnesses and the late hour and also to Chairman Shays, I 
think I will only use 2 of my 30 minutes. I was not going to 
use any of it, but when counsel was asking you questions about 
the leak that was reported in CNN yesterday, you all said that 
you were bothered by the leak and you wished there were no 
leaks. I think that is the view of everybody on the panel, that 
in a perfect world there would be no leaks. But leaks sometimes 
have different magnitudes. And I thought Mr. Robinson pointed 
out that the leak of Mr. Conrad's recommendation by any measure 
was a more significant leak than probably the one yesterday in 
CNN. Mr. Conrad's leak I think on a Richter scale would 
probably be a nine. Yesterday, I do not know how to evaluate 
it, but it would be somewhat less than that.
    And if you were going to put that leak in context, it may 
be that the Justice Department was getting asked questions 
about it because this committee asserted we knew what was on 
that tape and said it as a matter of fact, when in fact there 
may not be any agreement on what is on the tape. The hearing 
reporter we have here today is probably the most equipped 
person in the room to figure out what people say because that 
is what his job is, he has to transcribe it. And the other 
night on Fox TV there was a show called Hannity and Colmes and 
the chairman was on the show. I have a transcript of it and 
they have caught in this transcript every possible word that 
anybody said, with one exception. When the tape was played that 
we played here before, the reporter wrote down ``Albert Gore, 
Vice President of the United States, `We ought to, we ought to 
show that to [unintelligible] here, let [unintelligible] tapes, 
some of the ad tapes [unintelligible].' '' So the person whose 
job it is to figure out what is on the tape--who is not a 
Republican, who is not a Democrat, who does not have a bias, he 
is not related to the administration--that person, whoever it 
is, had a very difficult time trying to figure out exactly what 
was on the tape.
    So it may well be, and I am not making excuses for the 
Department, but when they were asked the question, it is not 
secret information they were giving out, but it is information 
that other people, including the professionals who have to 
interpret these things, have already reached on their own.
    Mr. Robinson. I would only suggest, though, that 
prosecutors and investigators ought not to be commenting on 
matters that might involve pending matters. I do not do it. I 
do not think it is right. I think the code of professional 
responsibility does not allow for that. People are entitled to 
their opinion, but this one, unlike many situations, at least 
there is something everybody can take a look at I guess and try 
to figure it out as best they can.
    Mr. Schiliro. What is on it, what is actually being said on 
the tape.
    Mr. Robinson. What is being said.
    Mr. Schiliro. But when we are in the realm of leaks, all 
this started because the initial leak about Mr. Conrad's 
recommendation.
    Mr. Robinson. I do not think it would be appropriate for me 
to comment about why other people leaked other people's stuff. 
But it hurts us. It gets in the way of our deliberative process 
and it can hurt people who might or might not get charged. 
Prosecutors, investigators, those in law enforcement, we are 
supposed to be enforcing the law and enforcing the rules and we 
ought not to be breaking them. That is my philosophy and that 
is one that I try to live by.
    Mr. Schiliro. I have used a minute and a half more than my 
2 minutes. So I thank the chairman for his courtesy. I have no 
more questions.
    Mr. Shays. I appreciate you gentlemen being here and I 
appreciate your patience for allowing us to question you from 1 
to 5:15. And I appreciate the cooperation of both the majority 
and minority and their counsels as well.
    We will call this hearing adjourned.
    [Whereupon, at 5:15 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Helen Chenoweth-Hage 
follows:]

[GRAPHIC] [TIFF OMITTED] T4429.259

                                <all>
</pre></body></html>
